Corrected Opinion Filed 8/17/20 by Clerk of the
Supreme Court Substitute Opinion Page 2,
Paragraph 4 and Page 3 filed 08/04/2020
Filed 07/30/20 by Clerk of Supreme Court
IN THE SUPREME COURT
STATE OF NORTH DAKOTA

2020 ND 175
Paul Sorum, Marvin Nelson, Michael Coachman,
Charles Tuttle and Lisa Marie Omlid, each on behalf
of themselves and all similarly situated tax payers of
the State of North Dakota,
Plaintiffs, Appellees, and Cross-Appellants,
v.
The State of North Dakota, The Board of University
and School Lands of the State of North Dakota,
The North Dakota Industrial Commission,
The Hon. Douglas Burgum, in his official capacity as
Governor of the State of North Dakota, and the Hon.
Wayne Stenehjem, in his official capacity as Attorney
General of North Dakota,
Defendants, Appellants, and Cross-Appellees.
No. 20190203
Appeal from the District Court of Cass County, East
Central Judicial District, the Honorable John C. Irby,
Judge.

A-1

AFFIRMED IN PART AND REVERSED IN PART.
Opinion of the Court by Tufte, Justice, in which Chief
Justice Jensen, Justice VandeWalle, and Surrogate
Judge Anderson joined. Justice Crothers filed a
specially concurring opinion, in which Chief Justice
Jensen joined.
Terrance W. Moore (argued), J. Robert Keena
(appeared), and Joseph M. Barnett (on brief), Edina,
Minnesota, for plaintiffs, appellees, and crossappellants Marvin Nelson, Michael Coachman,
Charles Tuttle, and Lisa Marie Omlid.
Paul J. Sorum (appeared), self-represented, Bismarck,
North Dakota, plaintiff, appellee, and cross-appellant.
Matthew A. Sagsveen (appeared), Solicitor General,
Office of Attorney General, Bismarck, North Dakota,
for defendants, appellants, and cross- appellees the
State of North Dakota, the Hon. Douglas Burgum, and
the Hon. Wayne Stenehjem.
Daniel L. Gaustad (argued), Ronald F. Fischer (on
brief), and Joseph E. Quinn (on brief), Special
Assistant Attorneys General, Grand Forks, North
Dakota, for defendant, appellant, and cross-appellee
North Dakota Industrial Commission.
Mark R. Hanson (appeared), Special Assistant
Attorney General, Fargo, North Dakota, for defendant,
appellant, and cross-appellee Board of University and
School Lands of the State of North Dakota.
Craig C. Smith (on brief) and Paul J. Forster (on brief),
Bismarck, North Dakota, for amicus curiae North
Dakota Petroleum Council.

A-2

Sorum v. State No. 20190203
Tufte, Justice.
[¶1] The Plaintiffs, in their individual capacities and
on behalf of similarly situated taxpayers, commenced
this action for a declaratory judgment that chapter 6133.1, N.D.C.C., relating to the ownership of mineral
rights in lands subject to inundation by the Garrison
Dam, is unconstitutional. The district court concluded
that N.D.C.C. § 61-33.1-04(1)(b) is on its face
unconstitutional under the "gift clause," N.D. Const.
art. X, § 18, and enjoined the State from issuing any
payments under that statute. The court rejected
Plaintiffs' constitutional challenges to the rest of
chapter 61-33.1. The Defendants appeal and the
Plaintiffs cross-appeal from the court's orders,
judgment, and amended judgment. We reverse that
portion of the judgment concluding N.D.C.C. § 61- 33.104(1)(b) violates the gift clause and the court's
injunction enjoining those payments. We also reverse
the court's award of attorney's fees and costs and
service award to the Plaintiffs because they are no
longer prevailing parties. We affirm the remainder of
the orders and judgment, concluding the Plaintiffs
have not established that chapter 61-33.1 on its face
violates the constitution.
I
[¶2] In 1944, the United States Congress authorized
the construction of the Garrison Dam on the Missouri
River. Closure of the Garrison Dam resulted in the
impoundment of water in a reservoir now known as
Lake Sakakawea. Before construction began, the Army
Corps of Engineers surveyed the area to be inundated
by the reservoir. The Corps used the survey to

A-3

determine the acreage necessary to be taken for the
Garrison Dam project. The Corps acquired through
purchase or condemnation land that now makes up the
bed of Lake Sakakawea.
[¶3] In 1951, oil was first discovered in the Bakken
Formation, some of which lies under present-day Lake
Sakakawea. Some owners of land in the Garrison Dam
take area reserved their mineral interests when they
conveyed land title to the United States. Beginning
around 2006, horizontal drilling and hydraulic
fracturing made oil and gas underneath the bed of
Lake Sakakawea economically accessible to producers.
[¶4] The Board of University and School Lands ("the
Land Board") manages the state's sovereign lands
related oil and gas interests. The State Engineer
manages all other state-owned minerals. In 2008, the
Land Board authorized a "Phase l" survey to determine
the ordinary high water mark ("OHWM") of the
Yellowstone and Missouri Rivers west of the Highway
85 Bridge. In 2010, the Land Board authorized the
"Phase 2" survey of the historical OHWM of the
Missouri River from Trenton to the Fort Berthold
Reservation as it existed prior to closure of the
Garrison Dam. The Land Board used the Phase 2
survey results for leasing sovereign minerals east of
the Highway 85 Bridge.
[¶5] The Phase 2 report contained the caveat that
"[t]he work completed under this contract was to
investigate and identify the OHWM using historic
data, and is not a final legal determination as to
whether any specific property is 'sovereign land."' In
anticipation of title disputes, the Land Board also
established escrow accounts for disputed funds.

A-4

[¶6] In 2017, the Legislative Assembly enacted Senate
Bill 2134, which is now codified as N.D.C.C. ch. 61-33.1
("the Act"). The Act sought to define and limit claims of
state ownership of the minerals underneath Lake
Sakakawea. Section 61-33.1-02, N.D.C.C., states:
The state sovereign land mineral
ownership of the riverbed segments
subject to inundation by Pick-Sloan
Missouri basin project dams extends
only to the historical Missouri riverbed
channel up to the ordinary high water
mark. The state holds no claim or title
to any minerals above the ordinary
high water mark of the historical
Missouri riverbed channel subject to
inundation by Pick-Sloan Missouri
basin project dams, except for original
grant lands acquired by the state under
federal law and any minerals acquired
by the state through purchase,
foreclosure,
or
other
written
conveyance. Mineral ownership of the
riverbed
segments
subject
to
inundation by Pick-Sloan Missouri
basin project dams which are located
within the exterior boundaries of the
Fort
Berthold
reservation
and
Standing Rock Indian reservation is
controlled by other law and is excepted
from this section.
[¶7] Under the Act, the Corps Survey acted as the
presumptive historical OHWM of the Missouri River.
N.D.C.C. § 61-33.1-03(1). The Act directed the
department of mineral resources to hire an engineering

A-5

firm to review the corps survey. N.D.C.C. § 61-33.103(2). Wenck Associates, Inc., completed a survey, and
its results were adopted as the true historical OHWM
of the Missouri River.
[¶8] The Act also provided that within six months after
the Land Board adopted the acreage determination,
"[a]ny royalty proceeds held by operators attributable
to oil and gas mineral tracts lying entirely above the
ordinary high water mark of the historical Missouri
riverbed channel on both the corps survey and the state
phase two survey must be released to the owners of the
tracts, absent a showing of other defects affecting
mineral title." N.D.C.C. § 61- 33.l-04(1)(a). The Act is
retroactive and applies to oil and gas wells spud after
January 1, 2006, for purposes of oil and gas mineral
and royalty ownership. Id; 2017 N.D. Sess. Laws ch.
426, § 4. The Legislative Assembly appropriated $100
million for these refunds, and authorized an $87
million line of credit with the Bank of North Dakota if
the initial appropriation was insufficient. 2017 N.D.
Sess. Laws ch. 426, § 3.
[¶9] In January 2018, the Plaintiffs sued the
Defendants, seeking a declaratory judgment that the
Act is unconstitutional, and to enjoin the Defendants
from enforcing it. The Plaintiffs' complaint alleged
N.D.C.C. ch. 61-33.1 "unconstitutionally gives away
State-owned mineral interests to 108,000 acres
underneath the OHWM of the Missouri River/Lake
Sakakawea, and above the Historic OHWM and gives
away over $205 million in payments, in violation of the
Constitution of the State of North Dakota." The
Plaintiffs sought "a declaration that 61-33.1 is
unconstitutional and an injunction prohibiting all
State officials from further implementing and

A-6

enforcing the Act."
[¶10] The Defendants moved to dismiss under
N.D.R.Civ.P. 19(b). The Defendants argued the
Plaintiffs' failure to join all parties with leaseholds and
other interests in the minerals affected by the lawsuit
required dismissal. The district court denied the
Defendants' motion, concluding the Plaintiffs did not
fail to join any necessary party.
(¶11] The Plaintiffs moved to preliminarily enJ01n the
Defendants from enforcing the Act. The district court
concluded the Plaintiffs were unlikely to prevail on any
of their claims except that payments authorized under
N.D.C.C. § 61-33.1-04(1)(b) violated the gift clause of
the North Dakota Constitution. The district court
granted a partial preliminary injunction preventing
the Defendants from releasing refund payments under
N.D.C.C. § 61-33.1-04(1)(b).
[¶12] The parties submitted opposing motions for
summary
judgment premised on material facts
stipulated for purposes of the motions. With one
exception, the district court rejected the constitutional
challenges to N.D.C.C. ch. 61-33.1 and granted
summary judgment in favor of the Defendants. The
court concluded the authorization for payment of
refunds under N.D.C.C. § 61- 33.1-04(1)(b) on its face
violates the gift clause, N.D. Const. art. X, § 18, and
enjoined the Defendants from paying the refunds.
[¶13] The Plaintiffs moved for an award of attorney's
fees, costs, and service awards. The Plaintiffs asked for
$62,271,000 in attorney's fees under the common fund
and private attorney general doctrines. The Plaintiffs'
attorneys submitted affidavits indicating the number
of hours billed and hourly rates of the attorneys

A-7

totaling $2,428,111 and $138,914.96. The district
court concluded there was no common fund and the
Plaintiffs' lodestars were excessive, but it awarded
$723,200 and $43,800 in attorney's fees to the
Plaintiffs under the private attorney general doctrine.
It also awarded $18,145.20 in costs. The court awarded
a service award to the named Plaintiffs in the amount
of $5,000 plus $50 per hour dedicated to the case by
each Plaintiff. The court did not cite legal authority for
the award, but instead cited Quaker Oats pitchman
Wilford Brimley, stating "it's the right thing to do."
II
(¶14] The Defendants argue the district court abused
its discretion in denying their motion to dismiss for
failure to join an indispensable party under
N.D.R.Civ.P. 19(b). We review a district court's
decision on a motion to dismiss for failure to join an
indispensable party for an abuse of discretion.
Statoil Oil & Gas LP v. Abaco Energy, LLC, 2017 ND
148, ¶ 6, 897 N.W.2d 1. A court abuses its discretion
only when "it acts in an arbitrary, unreasonable, or
unconscionable manner, its decision is not the product
of a rational mental process leading to a reasoned
decision, or if it misinterprets or misapplies the law."
Id. at ¶14 (quoting Datz v. Dosch, 2014 ND 102, ¶ 22,
846 N.W.2d 724).
[¶15] Rule 19(a), N.D.R.Civ.P., provides for the joinder
of persons needed for just adjudication. Stonewood
Hotel Corp. v. Davis Dev., Inc., 447 N.W.2d 286, 289
(N.D. 1989). Under N.D.R.Civ.P. 19(a), a required
party is one who "in that person's absence, the court
cannot accord complete relief among existing parties"
or one who holds "an interest relating to the subject of

A-8

the action and is so situated that disposing of the action
in the person's absence may ... as a practical matter
impair or impede the person's ability to protect the
interest; or ... leave an existing party subject to a
substantial risk of incurring double, multiple, or
otherwise inconsistent obligations because of the
interest."
[¶16] Rule 19(b), N.D.R.Civ.P., provides for dismissal
of an action in which a required party cannot be made
a party and is indispensable. "Dismissal of an action
for non-joinder of a party is an extreme remedy which
should only be granted where a party is truly
'indispensable."' Kouba v. Great Plains Pelleting, Inc.,
372 N.W.2d 884, 887 (N.D. 1985).
[¶17] "Complete relief' enjoining any enforcement of
N.D.C.C. ch. 61-33.1 can be accorded without joinder of
leaseholders or other interest holders in this action.
The Defendants argue the court erred because
proceeding in the action without joining leaseholders
and other interest holders would risk incurring double,
multiple, or otherwise inconsistent obligations for
those individuals. It is well-settled that joinder of all
affected parties is not required where the plaintiff
seeks to vindicate a public right. See National Licorice
Co. v. NLRB, 309 U.S. 350, 362-63 (1940). Here, the
action is a taxpayer challenge to the constitutionality
of a statute. Taxpayer challenges differ from most civil
cases in that a private party seeks to vindicate not only
the party's own individual rights, but the rights of the
public at large. Because the Plaintiffs here are seeking
to enforce public rights, they were not required to join
every affected party. The district court did not act in
an arbitrary, unreasonable, or unconscionable manner,
or misinterpret or misapply the law. Therefore, we hold

A-9

the district court did not abuse its discretion in denying
the Defendants' Rule 19 motion to dismiss, and affirm
the order denying the motion.
III
[¶18] In their complaint, the Plaintiffs sought a
declaration
that
N.D.C.C.
ch.
61-33.1
is
unconstitutional
under
the
North
Dakota
Constitution's gift clause, watercourses clause,
privileges or immunities clause, and the local or special
laws prohibition. The Plaintiffs also argued the Act
violates the public trust doctrine and sought
declaratory relief and an injunction prohibiting all
state officials from implementing or enforcing the Act.
The district court rejected these challenges to the Act,
with the exception of N.D.C.C. § 61-33.1-04(1)(b),
which
the
court
concluded
was
facially
unconstitutional under the gift clause.
[¶19] "Whether a statute is unconstitutional is a
question of law, which is fully reviewable on appeal."
Teigen v. State, 2008 ND 88, ¶7, 749 N.W.2d 505 (citing
Best Products Co., Inc. v. Spaeth, 461 N.W.2d 91, 96
(N.D. 1990)). When interpreting constitutional
provisions, "we apply general principles of statutory
construction." State ex rel. Heitkamp v. Hagerty, 1998
ND 122, ¶13, 580 N.W.2d 139 (quoting Comm'n on
Med. Competency v. Racek, 527 N.W.2d 262, 266 (N.D.
1995). We aim to give effect to the intent and purpose
of the people who adopted the constitutional provision.
Id. We determine the intent and purpose of a
constitutional provision, "if possible, from the language
itself." Kelsh v. Jaeger, 2002 ND 53, ¶ 7, 641 N.W.2d
100. "In interpreting clauses in a constitution we must
presume that words have been employed in their

A-10

natural and ordinary meaning." Cardiff v. Bismarck
Pub. Sch. Dist., 263 N.W.2d 105, 107 (N.D. 1978).
[¶20] "A constitution 'must be construed in the light of
contemporaneous history-of conditions existing at and
prior to its adoption. By no other mode of construction
can the intent of its framers be determined and their
purpose given force and effect."' Hagerty, 1998 ND 122,
¶17, 580 N.W.2d 139 (quoting Ex parte Corliss, 16 N.D.
470, 481, 114 N.W. 962, 967 (1907)). Ultimately, our
duty is to "reconcile statutes with the constitution
when that can be done without doing violence to the
language of either." State ex rel. Rausch v. Amerada
Petroleum Corp., 78 N.D. 247, 256, 49 N.W.2d 14, 20
(1951). Under N.D. Const. art. VI, § 4, we "shall not
declare a legislative enactment unconstitutional
unless at least four of the members of the court so
decide."
[¶21] The Plaintiffs' constitutional challenges are
"facial" challenges rather than "as-applied" challenges.
Rather than challenging a particular refund under a
particular lease as a constitutional violation by the
state officer executing the law, the complaint sought "a
declaration
that
[N.D.C.C.
ch.]
61-33.1
is
unconstitutional." A claim that a statute on its face
violates the constitution is a claim that the Legislative
Assembly exceeded a constitutional limitation in
enacting it, and the practical result of a judgment
declaring a statute unconstitutional is to treat it "as if
it never were enacted." Hoff v. Berg, 1999 ND 115, ¶
19, 595 N.W.2d 285. The Plaintiffs' assertion of
standing as taxpayers underscores this. The Plaintiffs
assert no personal interest or ownership in the
minerals at issue-as taxpayers, they claim only
financial harm to the government and seek a

A-11

declaration that the Act is void and no payments may
be made under its authority. A facial challenge to a
statute presents a higher bar than an as-applied
challenge because under N.D. Const. art. VI, § 4, it
requires four votes in this court to declare a legislative
enactment unconstitutional. A facial challenge is
purely a question of law because the violation, if any,
occurs at the point of enactment by virtue of the
Legislative Assembly enacting a law prohibited by the
constitution. Id. A violation that occurs at the time of
enactment does not depend on any facts or
circumstances arising later.
A
(¶22] The Defendants argue that because the
Plaintiffs' claims are limited to facial challenges, their
burden is to establish there is no set of circumstances
under which chapter 61-33.1 could constitutionally be
applied. As presented here, the Defendants argue the
Plaintiffs must establish that the State owns the
entire affected area because the Act could
constitutionally be applied to any lands the State does
not own. Likewise, N.D.C.C. § 61-33.1-04(1)(b) applies
to claims for return of royalties within the statute of
limitations and to claims that have lapsed. The
Defendants cite to our recent application of a "no set
of circumstances" standard to an individual's facial
equal protection challenge. Larimore Pub. Sch. Dist.
No. 44 v. Aamodt, 2018 ND 71, ¶ 38, 908 N.W.2d 442
(citing U.S. v. Salerno, 481 U.S. 739, 745 (1987)). The
Defendants' assertion that they can defeat all of these
facial challenges at the outset by hypothesizing a
constitutional application is unpersuasive and
inconsistent with how we have analyzed facial
challenges brought by taxpayers seeking to invalidate

A-12

spending statutes under the constitution's gift clause
and debt limit provisions.
[¶23] The Plaintiffs argue the State may not legitimate
an unconstitutional gift by pairing it with transfers
that do not violate the gift clause. If the State owns
some of the mineral acres in the affected area, it may
not by statute renounce all interest in all the acres and
respond to a gift clause challenge by asserting the
statute is facially constitutional because it has
constitutional application to the renounced acreage the
State didn't own to begin with. We apply our
longstanding standard for taxpayer challenges to
statutes under the gift clause. A taxpayer's burden in
a facial challenge under the gift clause is satisfied if
the statute requires some transfers that would be
unconstitutional donations regardless of whether other
transfers under the statute would not constitute
unconstitutional donations. State ex rel. Eckroth v.
Borge, 69 N.D. 1, 12, 283 N.W. 521, 526 (1939)
(reasoning that if statute removed recipient need as
qualification, it would provide assistance "at least to
some who are not in need" and would thus violate the
gift clause).
(¶24] In resolving taxpayer challenges to the
constitutionality of statutes authorizing government
spending, we have said "where the constitutionality of
a statute depends upon the power of the legislature to
enact it, its validity must be tested by what might be
done under color of the law and not what has been
done." Herr v. Rudolf, 75 N.D. 91, 103, 25 N.W.2d 916,
922 (1947) (citing State v. Stark County, 14 N.D. 368,
103 N.W. 913 (1905)). Because the Act requires the
State to release all royalties, under both enforceable
claims and previously-lapsed claims, it necessarily

A-13

includes transactions that are without legal obligation
and thus we must determine whether those
transactions are prohibited "donations." Accordingly,
despite having constitutional application to unexpired
claims, in the context of a taxpayer challenge under the
gift clause, we conclude the Plaintiffs' facial challenge
does not fail merely because the statute includes
constitutional applications along with potentially
unconstitutional applications.
B
[¶25] The gift clause of the North Dakota Constitution
provides:
The state, any county or city may
make internal improvements and may
engage in any industry, enterprise or
business, not prohibited by Article XX of
the Constitution, but neither the state nor
any political subdivision thereof shall
otherwise loan or give its credit or make
donations to or in aid of any individual,
association or corporation except for
reasonable support of the poor, nor
subscribe to or become the owner of
capital stock in any association or
corporation.
N.D. Const. art. X, § 18. Section 61-33.1-04(1)(b),
N.D.C.C., provides that within six months after
adoption of the acreage determination by the Land
Board:
Any royalty proceeds held by the
board of university and school lands

A-14

attributable to oil and gas mineral tracts
lying entirely above the ordinary high
water mark of the historical Missouri
riverbed channel on both the corps survey
and the state phase two survey must be
released to the relevant operators to
distribute to the owners of the tracts,
absent a showing of other defects
affecting mineral title.
This section applies retroactively to all wells spud after
January 1, 2006, for purposes of oil and gas mineral
and royalty ownership. 2017 N.D. Sess. Laws ch. 426,
§ 4.
[¶26] The Plaintiffs identify four categories of stateowned funds or property which they claim the Act
gives away to private individuals in violation of the
gift clause. The categories are: (1) leases and leased
mineral acres; (2) unleased mineral acres; (3) $187
million in the Strategic Investments and
Improvements Fund ("SIIF"); and (4) $18 million
escrowed because of royalty disputes. The district
court's analysis of section 61-33.1-04(1)(b) implicates
only category 3, the royalty proceeds held in the SIIF.
Because the Plaintiffs cross-appeal the district court's
rejection of their facial challenge to the chapter as a
whole, we must also consider the chapter's application
to the other categories of money or property. The
Defendants argue the State had no protectable
interest in the property that could be given away and
that reviving claims against the State barred by the
statute of limitations does not implicate the gift
clause.
[¶27] The district court interpreted N.D.C.C. § 6133.1-04(1)(b) to require the Land Board to transfer
A-15

State funds from the SIIF to newly adjudicated
mineral owners without consideration to the State
because its retroactivity to 2006 effectively extended
the statute of limitations, reviving claims against the
State that were barred before the Act became
effective. The relevant statute of limitations is
N.D.C.C. § 28-01-22.1, under which any action against
the state, state employees or state officials "must be
commenced within three years after the claim for
relief has accrued." The district court reasoned that
any royalty proceeds subject to claims that had lapsed
under the three-year statute of limitations were
indisputably owned by the State because they were no
longer subject to any legally enforceable claim. It
concluded that by directing payment of money to
private parties under lapsed and unenforceable
claims, section 61- 33.1-04(1)(b) violates on its face the
constraints of N.D. Const. art. X, § 18. The district
court also concluded there was no constitutional
violation presented by the other provisions of the Act,
either with respect to the funds in the SIIF or to the
other categories of property interests asserted as
prohibited gifts.
[¶28] The issue before us is whether refunds under
section 61-33.1-04(1)(b) or other provisions of the Act
directing transfer or release of the State's interest in
these four classes of property constitute "donations"
prohibited by the gift clause.
[¶29] We first consider the ordinary meaning of
"donation" at the time the provision was enacted. The
phrase "make donations to or in aid of any individual,
association or corporation" appeared in the original
1889 constitution, then numbered Section 185.
Haugland v. City of Bismarck, 2012 ND 123, ¶ 26, 818

A-16

N.W.2d
660. Dictionaries of the era defined
"donation" by reference to the Latin word donatio,
meaning "[t]he act by which the owner of a thing
voluntarily transfers the title and possession of the
same from himself to another person, without any
consideration." Bouvier, A Law Dictionary 559 (15th
ed. 1883); Black, A Dictionary of Law 389 (1st ed.
1891) (same); Webster's Complete Dictionary 404
(1886 ed.) (quoting Bouvier for definition used in law
and providing common definition as "[t]hat which is
given or bestowed; that which is transferred to
another gratuitously, or without a valuable
consideration; a gift; a grant."). These consistent
definitions comport with the modern
usage
of
"donation" and provide a reliable starting point
in determining how the term would have been used
and understood by those who drafted and adopted the
provision. See Wilkens v. Westby, 2019 ND 186, ¶ 8,
931 N.W.2d 239 ("Using dictionaries close in time to
the enactment of a statute is helpful in determining
substantive meaning.").
[¶30] When the North Dakota Constitution was
adopted, New York had a provision that was "nearly
identical in language with section 185." Erskine v.
Steele Cty., 87 F. 630, 636 (C.C.D.N.D. 1898), aff'd, 98
F. 215 (8th Cir. 1899). Authoritative interpretations
of gift clauses in other state constitutions that
predated adoption of the North Dakota constitution in
1889 are particularly persuasive. "Courts in
construing constitutional or statutory provisions
which have been taken from another state almost
invariably hold that the Legislature or the
Constitution makers are presumed to have adopted it
with knowledge of the construction or interpretation
given it by the courts of the state whence it comes, and

A-17

therefore to have adopted such construction or
interpretation." State ex rel. McCue v. Blaisdell, 18
N.D. 31, 119 N.W. 360, 365 (1909). New York
amended its constitution in 1875 to forbid gift or loan
of the money of the state. Trustees of Exempt
Firemen's Benev. Fund of City of New York v. Roome,
93 N.Y. 313, 316 (1883). Interpreting this clause soon
after its adoption, New York's high court considered a
gift clause challenge to a statute authorizing payment
to firemen "after the service ended, and when there
was no legal or equitable obligation operating upon
the State." Id. at 326. The court concluded the
historical circumstances showed the payment was not
a prohibited donation, but discharge of an honorable
obligation, analogizing to payment of a debt
discharged in bankruptcy:
If a merchant fails in business and
compromises with his creditors for a part
only of their debts, or is discharged in
bankruptcy with a small dividend, and
thereafter being fortunate and becoming
rich, calls his old creditors together, and
gives to each principal and interest of the
discharged balance, he does what he is
not obliged to do, what neither law nor
equity could compel, but he does not
make a gift or dispense a charity. A
purely moral obligation rests upon him,
which he may or may not heed, but if he
does, it characterizes his act, and makes
that an honest payment of an honest
debt which otherwise would have been a
charity and a gift.
Roome, 93 N.Y. at 326.

A-18

[¶31] Roome did not characterize the appropriation for
the firemen as supported by only a moral obligation
without past consideration supporting it. As a result of
technological
and
organizational
changes
in
firefighting, many firemen were discharged from
service, although "they stood ready to serve their full
terms." Id. at 325. The court explained that the
payment to the firemen after their service had ended
was "an honorable obligation founded upon their past
services and the injuries and suffering which those had
occasioned." Id. at 326. The court concluded the
payment of public money to the exempt firemen was
not a gift or donation prohibited by the state
constitution: "the constitutional provision was not
intended and should not be construed to make
impossible the performance of an honorable obligation
founded upon a public service, invited by the State,
adopted as its agency for doing its work, and induced
by exemptions and rewards which good faith and
justice require should last so long as the occasion
demands." Id. at 327.
[¶32] After North Dakota adopted its gift clause, at
least two states considered whether payment of a claim
against the state that is no longer legally enforceable
is a donation under a similar constitutional provision.
In Bickerdike v. State, the Supreme Court of California
considered legislation waiving the defense of a statute
of limitations for claims that had expired several years
prior to passage of the act. 78 P. 270, 275 (Cal. 1904).
The court concluded waiver of the limitations defense
was not a gift within the meaning of the constitutional
provision because the defense did not extinguish the
underlying debt obligation but only barred remedy in
court. "The payment of such a debt by the debtor is not
a 'gift,' in any proper sense of the word, and there is

A-19

nothing in the constitutional provision invoked that
can be held to prohibit the legislature from paying
these claims." Id.
[¶33] The Supreme Court of Wyoming has also
considered a challenge under a provision forbidding
the state to "make donations to or in aid of any
individual . . . except for necessary support of the
poor." State v. Carter, 30 Wyo. 22, 29, 215 P. 477, 479
(1923). The Wyoming legislature had appropriated
three thousand dollars for relief of the widow of an
undersheriff who had been killed in the line of duty.
Considering the claim that this was an
unconstitutional donation, the court explained:
In a sense, of course, every payment not
legally enforceable might be said to be a
gift. But courts have not, generally,
construed that term as broadly as that. A
claim paid after it is barred by the statute
of limitation is not considered a gift, but
the recognition of a moral right, and,
when
the
existence
thereof
is
acknowledged after the statute has run, it
may even be enforced in an action at
law. And it is generally held that, to be a
claim which a state may recognize, it
need not be such as is legally enforceable,
but may be a moral claim, one based on
equity and justice.
Id. (emphasis added).
[¶34] This Court has previously said that "a moral or
equitable obligation on the state" may support a
transfer lacking any money or other consideration.

A-20

Solberg v. State Treasurer, 78 N.D. 806, 814, 53 N.W.2d
49, 53 (1952). In Solberg, we found no sufficient moral
or equitable obligation supported a finding of
consideration for the release of a reservation of mineral
rights. Id. at 53-54. In that case, the State conveyed
land subject to a 50% mineral reservation for an agreed
price that accounted for the reserved minerals. Id. at
50. The State never had a legal obligation to convey the
50% mineral interest it reserved, and thus we
concluded the legislation gratuitously conveying this
mineral interest to the surface owner was void under
the gift clause. Id. at 53-54. We also considered "moral"
consideration, finding none, when interpreting
"donation" in Petters & Co. v. Nelson County, 68 N.D.
471, 480, 281 N.W. 61, 65 (1938). As in Solberg, and
unlike the situation here, the State had no prior legal
obligation to pay the plaintiffs claim. Rather than
paying a previously valid claim to which the State had
a statutory defense, the statute at issue in Petters &
Co. created a new obligation, which the Court held
would "constitute a donation, a pure and simple
gratuity, unsupported by any consideration, legal,
equitable, or moral." Id.
[¶35] These cases are consistent with the underlying
rule of law found in the field of contracts, which for
centuries has recognized the concept of moral
obligations providing legal consideration to support
formation of a contract - but only a contract related to
the obligation. One prominent treatise explains the
history of consideration based on a moral obligation as
follows:
Beginning about the middle of the 18th
Century, the term "moral obligation" as a
kind of past consideration that would

A-21

validate a subsequent promise to fulfill
the obligation gained currency. This
theory of moral consideration was applied
in various cases during the latter half of
the 18th Century; thus, a promise by
overseers of the poor to pay for expenses
incurred in curing a pauper was upheld,
as was a promise by an executor, having
assets sufficient for the purpose, to pay a
pecuniary legacy. Courts also upheld a
promise to pay the legal portion of a
usurious debt on the ground that the
promisor was morally obliged to do so,
and a promise by a widow to indemnify
one who had advanced money to another
at her request during her coverture when
she was incapable of contracting was
upheld on similar grounds.
However, about the beginning of the 19th
Century courts began to restrict the
doctrine of moral consideration, out of
concern for the fact that enforcement of
such promises would lead to an
unacceptable breadth of promissory
liability. In the words of one court, "The
enforcement of such promises by law,
however plausibly reconciled by the
desire to effect all conscientious
engagements, might be attended with
mischievous consequences to society, one
of which would be the frequent preference
of voluntary undertakings to claims for
just debts. Suits would thereby be
multiplied, and voluntary undertakings
would also be multiplied, to the prejudice
of real creditors. The temptations of

A-22

executors would be much increased by the
prevalence of such a doctrine, and the
faithful discharge of their duty be
rendered more difficult." The rule thus
developed that an express promise could
only give rise to liability if there had
previously been a consideration which
would have given rise to an implied
promise which might have been enforced
by an action at law but for some technical
bar.
4 Williston on Contracts§ 8:14 (footnotes omitted).
[¶36] These nineteenth-century restrictions on the
concept of moral consideration were included in the
1877 territorial code, and the provision remains
materially unchanged in the century code today.
N.D.C.C. § 9-05-02 ("An existing legal obligation
resting upon the promisor, or a moral obligation
originating in some benefit conferred upon the
promisor or prejudice suffered by the promisee, also
is a good consideration for a promise to an extent
corresponding with the extent of the obligation, but no
further or otherwise."). Like the law of contract, the
holding we announce today is limited to those
obligations that existed at law and would have been
enforceable against the State but for a technical bar
such as the statute of limitations.
[¶37] The Defendants argue broadly that the State
may extend a statute of limitations without
implicating constitutional limits, but cite only cases
addressing constitutional challenges under the due
process clause, such as Plaut v. Spendthrift Farm, Inc.,
514 U.S. 211, 229 (1995). These cases are

A-23

distinguishable because the constitutional issue was
whether the state could extend a statute of limitations
and revive a lapsed claim against a private party. Id.
(explaining "a statute of limitations ... can be extended,
without violating the Due Process Clause, after the
cause of the action arose and even after the statute
itself has expired"). Where vested property interests
are implicated, a defendant may have a due process
interest that limits retroactive extension of a statute of
limitation. See Interest of W. M. V., 268 N.W.2d 781,
786 (N.D. 1978) (rejecting due process challenge to
statute reviving claims previously barred because
challenger had no vested rights). Here, no due process
issue is presented, because the State has extended
the statute of limitation to claims against itself and it
cannot be said to violate its own due process rights by
enacting a statute. See Schoon v. NDDOT, 2018 ND
210, ¶ 23, 917 N.W.2d 199; Ruotolo v. State, 631 N.E.2d
90, 96-97 (N.Y. 1994) (rejecting argument that the
legislature may violate the state's due process rights
by enacting a law reviving unenforceable claims). But
whether the Act is consistent with due process does not
answer whether it may violate the gift clause by
releasing funds the state had no legal obligation to pay.
[¶38] We hold that where the State has a legal
obligation that becomes unenforceable by the passage
of a statute of limitations, the Legislative Assembly
may waive or extend the limitation period to revive a
previously valid claim against the State without
making a prohibited "donation" within the meaning
of the gift clause.
[¶39] We now apply this framework to the Plaintiffs'
claims about release of royalties from the SIIF, which
the district court concluded was a prohibited gift.

A-24

Claims to the royalty proceeds held by the Land Board
may be divided into two groups: those funds subject to
claims that had lapsed prior to the effective date of the
Act, and those funds subject to claims that had not
lapsed.
[¶40] The money in the SIIF that the State is required
to release under § 61- 33.1-04(1)(b) is in the SIIF
because the State was paid royalties under leases of
minerals that it once claimed but now by statute no
longer claims. This section requires those funds be
released to the operating oil company for payment to
the mineral owners determined under the Act. We
reject the Plaintiffs' argument that the gift clause
requires the State to rely on the statute of limitations
and keep money it was paid for leasing minerals it
now acknowledges it does not own and should not
have leased. Although the State may have a legal
defense under the statute of limitations, it also has a
moral obligation to pay its just debts and deal fairly
with the people. These funds have accrued since 2006
and have been held separately from other funds, so no
new revenue will have to be raised to pay these claims.
We conclude the State may through legislation
recognize this obligation and return funds from the
SIIF without making a prohibited "donation" under
the gift clause.
[¶41] In their cross-appeal, the Plaintiffs argue the
district court erred in concluding there was no gift
clause violation by the Act's disclaimer of interests in
leases, leased mineral acres, unleased mineral acres,
and $18 million escrowed because of royalty disputes.
These claims turn on whether the State ever had a
legal interest such that disclaimer of that interest
could constitute a prohibited donation.

A-25

[¶42] Under the equal-footing doctrine, North Dakota
acquired title to the bed of the Missouri River up to its
ordinary high water mark at the time North Dakota
was admitted to the union. Reep v. State, 2013 ND 253,
¶ 14, 841 N.W. 2d 664. Citing Oregon ex. rel. State
Land Bd. v. Corvallis Sand & Gravel Co., 429 U.S.
363, 371-72, 376 (1977), the district court concluded
that the equal-footing doctrine vested the State with
title to the bed of the Missouri River as it existed at
the time of statehood, but that since statehood, the
equal- footing doctrine does not determine how the
changing footprint of the river over time affects title to
the riverbed. Instead, how the changing riverbed
affects the State's title is controlled by state law,
including the public trust doctrine.
(¶43] The public trust doctrine was first recognized by
this Court in United Plainsmen v. N.D. State Water
Conservation Commission, 247 N.W.2d 457 (N.D.
1976). In United Plainsmen, this Court stated
N.D.C.C. § 61-01-01 expresses the public trust
doctrine. Id. at 462. Under the public trust doctrine,
the State holds title to the beds of navigable waters in
trust for the use and enjoyment of the public. This
Court has said fostering the public's right of navigation
is traditionally the most important feature of the
public trust doctrine. J.P. Furlong Enterprises, Inc. v.
Sun Exploration and Production Co., 423 N.W.2d 130,
140 (N.D. 1988). We have also recognized other
interests served by the public trust doctrine, such as
bathing, swimming, recreation and fishing, as well as
irrigation, industrial and other water supplies. Id.
(recognizing that legislation may modify this common
law doctrine).

A-26

[¶44] The Submerged Lands Act, 43 U.S.C. § 13011356b, generally confirms state ownership of the title
to the beds of navigable waters as against any claim
of the United States. 43 U.S.C. § 1311. But from this
broad confirmation of state authority, it excepts "all
lands acquired by the United States by eminent
domain proceedings, purchase, cession, gift, or
otherwise in a proprietary capacity." 43 U.S.C. §
1313(a). The federal government acquired the bed of
Lake Sakakawea above the historical OHWM by
purchase or eminent domain so that it could be
inundated by the Garrison Dam. Under § 1313 of the
Submerged Lands Act, the land taken by the federal
government for the Garrison Dam project is owned by
the United States.
[¶45] Under the Supremacy Clause, U.S. Const. art.
VI, cl. 2, the laws of the United States are the supreme
law of the land, and any state law that conflicts with
federal law is without effect. Home of Economy v.
Burlington N. Santa Fe R.R., 2005 ND 74, ¶ 5, 694
N.W.2d 840. The Plaintiffs present several
arguments as to how the State obtained ownership of
the disputed minerals, including by implication of the
watercourses clause of the state constitution, by selfexecuting transfer under the Sovereign Lands Act,
N.D.C.C. § 61-33-03, and the common law public trust
doctrine first recognized in United Plainsmen. The
Flood Control Act of 1944 authorized construction of
the Garrison Dam and acquisition of the land that
would be subject to inundation by the reservoir. Any
contrary state law, including the constitution, a
statute, or the common law, which purports to vest in
the State the legal ownership of the bed of Lake
Sakakawea is preempted under the Supremacy
Clause to that extent.

A-27

[¶46] The federal government acquired through
purchase or eminent domain both the surface and
mineral estate to much of the affected area, but it
allowed some landowners to reserve their mineral
interests during the acquisition phase. Since the
federal government's acquisition under authority of
the Flood Control Act of 1944, the prior landowners'
reservation of mineral interests has remained in the
chain of title. The Submerged Lands Act expressly
excepts from an otherwise broad assignment to states
of the lands beneath navigable waters those lands
acquired by the United States by eminent domain or
purchase. 43 U.S.C. §§ 1311, 1313. These federal laws
preempt operation of any state law that would
otherwise vest ownership in the state, including
chapter 61-33 and the public trust doctrine. As a result,
we conclude the lakebed above the historic OHWM
and accompanying mineral estates were never the
State's to "give away." The State does not violate the
gift clause by transferring property or renouncing
claims to property that it does not own in the first
instance. Because the State cannot give away that
which it does not own, we hold the Act does not violate
the gift clause of the North Dakota Constitution to the
extent that it renounces claims to leases, leased
mineral acres and unleased mineral acres in the
affected area. The Defendants' release of claims to
funds held in escrow as a result of royalty disputes is
derivative of its claims to the leases and leased
mineral acres and would not be subject to a statute of
limitation defense and so also does not violate the gift
clause.
C
[¶47] The Plaintiffs argue the district court erred in
concluding N.D.C.C. ch. 61-33.1 does not violate N.D.

A-28

Const. art. XI, § 3 ("the watercourses clause").
[¶48] The watercourses clause provides, "All flowing
streams and natural watercourses shall forever remain
the property of the state for mining, irrigating and
manufacturing purposes." N.D. Const. art. XI, § 3. The
word "remain" in the text of the watercourses clause
reinforces the principle that the State's ownership of
flowing streams and natural watercourses was fixed at
statehood. See Riemers v. Eslinger, 2010 ND 76, ¶ 11,
781 N.W.2d 632 (emphasizing the word "remain" in
concluding the scope of the jury trial right was fixed at
statehood by N.D. Const. art. I, § 13, which guarantees
"the right to a jury trial 'shall ... remain inviolate"'
(quoting City of Bismarck v. Fettig, 1999 ND 193, ¶ 11,
601 N.W.2d 247)); State v. Lohnes, 69 N.W.2d 508, 51213 (N.D. 1955) (overruled on other grounds)
(emphasizing use of "remain" in the enabling act and
section 203 of the constitution to emphasize that state
and federal jurisdiction over Indian lands was fixed at
statehood). We conclude the watercourses clause
operated to vest in the State ownership of watercourses
which existed at statehood, but does not operate to vest
in the State watercourses that become navigable after
statehood, such as Lake Sakakawea.
(¶49] This is consistent with this Court's prior
interpretation of the watercourses clause. For
example, in Ozark-Mahoning Co. v. State, 76 N.D. 464,
37 N.W.2d 488 (1949), this Court held that the
watercourses clause applies only to watercourses
which were navigable upon North Dakota's admission
to the United States. There, the State appealed from a
judgment quieting title to the bed of Grenora Lake in
favor of the riparian owners of the lots abutting the
meander lines around the lake. Id. at 489-90. The

A-29

State argued that only it could own the lakebed under
the watercourses clause. Id. at 492-93. Because no
evidence showed that Grenora Lake was navigable
when North Dakota was admitted to the United States,
the Court affirmed the judgment in favor of the
landowners. Id. at 493. Citing Bigelow v. Draper, 6
N.D. 152, 69 N.W. 570 (1896), the Court explained that
under the common law of Dakota Territory when North
Dakota was admitted to the United States, "the owner
of land through which a nonnavigable stream flowed
was possessed of the title to the bed of the stream." The
watercourses clause was interpreted to apply only to
those watercourses that were navigable at statehood
because an interpretation that would divest the rights
of riparian owners to the beds of watercourses that
were not navigable in fact at statehood would violate
the Fourteenth Amendment to the U.S. Constitution.
Id.
[¶50] Here, the stipulated facts reflect that the land
from the bank of the Missouri River up to an elevation
of 1854 feet mean sea level was acquired by the Corps
for impounding water by operation of the Garrison
Dam. The area above the banks of the Missouri River
was not navigable when North Dakota was admitted to
the United States. Because the affected area was not
navigable at statehood, and became navigable only
when inundated by operation of the Garrison Dam
beginning in 1953, we conclude N.D.C.C. ch. 61-33.1
does not violate the watercourses clause.
D
(¶51] The Plaintiffs argue the district court erred in
concluding N.D.C.C. ch. 61-33.1 does not violate
sections 21 and 22 of the North Dakota Constitution.

A-30

Article I, § 21, provides:
No special privileges or immunities
shall ever be granted which may not be
altered, revoked or repealed by the
legislative assembly; nor shall any citizen
or class of citizens be granted privileges
or immunities which upon the same
terms shall not be granted to all citizens.
Article I, § 22, N.D. Const., provides:
All laws of a general nature shall have a
uniform operation.
[¶52] The state constitution "does not prohibit
legislative classifications or require identical
treatment of different groups of people." Larimore
Pub. Sch. Dist. No. 44 v. Aamodt, 2018 ND 71, ¶ 34,
908 N.W.2d 442 (citing State v. Leppert, 2003 ND 15,
¶ 7, 656 N.W.2d 718). In MCI Telecommunications
Corp. v. Heitkamp, 523 N.W.2d 548, 552 (N.D. 1994),
this Court distinguished between general laws and
special laws, and stated that "[s]pecial laws are made
for individual cases of less than a class, due to peculiar
conditions and circumstances[,]" while general laws
"appl[y] to all things or persons of a class." This Court
then stated, "Reasonable classification does not
violate the special laws provision of the North Dakota
Constitution." Id. at 553. "A statutory classification
challenged under the special laws provision of our
constitution is ... to be upheld if it is natural, not
arbitrary, and standing upon some reason having
regard to the character of the legislation of which it is
a feature." Id.

A-31

(¶53] The Plaintiffs cite Solberg v. State Treasurer, 78
N.D. 806, 816-17, 53 N.W.2d 49, 55 (1952), for the
proposition that the Act denies equal protection to the
many by distributing state-owned assets to the few. In
Solberg, this Court's holding was limited to the gift
clause. Id. The Plaintiffs equal protection argument
is simply a repackaging of the Plaintiffs' gift clause
argument which we rejected in section III-B above.
[¶54] The Plaintiffs also argue the Act created an
unconstitutionally
arbitrary
classification
by
distinguishing between wells spud before and after
January 1, 2006. The record reflects January 2006
was the approximate time oil and gas production
began under Lake Sakakawea via horizontal drilling.
Therefore, the Act's retroactive application to January
1, 2006, reflects a rational line dividing periods with
different economic and industrial characteristics and
is not arbitrary. Because the Act did not create an
unconstitutional classification, we hold that the
district court did not err in concluding it does not
violate N.D. Const. art. I, §§ 21 and 22.
E
[¶55] The Plaintiffs argue the district court erred in
concluding N.D.C.C. ch. 61-33.1 does not violate the
public trust doctrine.
[¶56] In North Dakota, a mineral estate severed from
the surface estate charges the surface estate owner
with an implied servitude for the owner or lessee of
the mineral estate to develop the minerals. Krenz v.
XTO Energy, Inc., 2017 ND 19, ¶ 42, 890 N.W.2d 222
(citing Hunt Oil Co. v. Kerbaugh, 238 N.W.2d 131, 135
(N.D. 1979)). Because the mineral estate is dominant

A-32

over the surface estate, easements implied by private
mineral ownership under a navigable waterway
would offend the public trust if the mineral owner's
easement is in conflict with and superior to the State's
trust interest. However, as discussed above, the
federal government holds title to the lakebed of Lake
Sakakawea, and its interest supersedes the State's
public trust interest under the Supremacy Clause.
Because the federal government, rather than the
State, holds title to the lakebed outside the historical
river channel, the public trust is not implicated by
private mineral ownership under Lake Sakakawea.
Because the public trust doctrine is a common law
principle, it cannot invalidate a statute that is not
prohibited by the constitution. N.D.C.C. § 1-01- 06; §
1-02-01; Verry v. Trenbeath, 148 N.W.2d 567, 571
(N.D. 1967). We conclude the district court did not err
in concluding N.D.C.C. ch. 61-33.1 does not violate the
public trust doctrine.
IV
(¶57] The Defendants argue that the district court
abused its discretion in awarding attorney's fees, costs,
and service fees. The Plaintiffs also argue on crossappeal that the district court abused its discretion in
its calculation of attorney's fees, costs, and service fees.
A district court's decision on attorney's fees is reviewed
under the abuse of discretion standard. Rocky
Mountain Steel Foundations, Inc. v. Brockett Company,
LLC, 2019 ND 252, i1 7, 934 N.W.2d 531 (citing
Lincoln Land Dev., LLP v. City of Lincoln, 2019 ND 81,
¶ 20, 924 N.W.2d 426).
[¶58] North Dakota courts generally apply the
"American Rule" for attorney's fees and assume each

A-33

party to a lawsuit will bear its own attorney's fees.
Rocky Mountain Steel Foundations, 2019 ND 252, ¶ 9,
934 N.W.2d 531 (citing Deacon's Dev., LLP v. Lamb,
2006 ND 172, ¶ 11, 719 N.W.2d 379). "[S]uccessful
litigants are not allowed to recover attorney fees unless
authorized by contract or by statute." Id. As an
exception to the American Rule, a lawyer who recovers
a common fund for the benefit of persons other than
himself or his client may be entitled to reasonable
attorney's fees from the fund as a whole. Ritter, Laber
& Assocs., Inc. v. Koch Oil, Inc., 2007 ND 163, ¶ 27, 740
N.W.2d 67 (citing Horst v. Guy, 211 N.W.2d 723, 732
(N.D.1973)).
[¶59] The award of attorney's fees was not authorized
by contract or statute. As a result of our decision, the
Plaintiffs did not recover a common fund for the benefit
of others and are therefore not entitled to attorney's
fees under the common fund doctrine. We reverse
the award of attorney's fees. Under N.D.C.C. § 2826-06, costs are taxed in favor of the prevailing party.
Because we reverse the portion of the summary
judgment finding application of N.D.C.C. § 61-33.104(1)(b) unconstitutional, the Plaintiffs are no longer
prevailing parties. We reverse the award of costs.
[¶60] As a result of our decision here the Plaintiffs are
no longer prevailing parties, and therefore no theory
supports a service award. Because we reverse the
portion of the summary judgment on which the
Plaintiffs initially prevailed, we also reverse the
district court's grant of the requested service award.
V
[¶61] We affirm the district court's order denying the
Defendants' N.D.R.Civ.P. 19(b) motion to dismiss. We
A-34

affirm that part of the court's judgment concluding the
Plaintiffs have not demonstrated N.D.C.C. ch. 61-33.1
is facially unconstitutional. We reverse the order
granting an injunction and reverse the judgment to the
extent it concludes the release of lease and bonus
refunds authorized under N.D.C.C. § 61-33.1-04(1)(b)
would result in unconstitutional gifts under N.D.
Const. art. X, § 18, and to the extent It awards to the
Plaintiffs attorney's fees, costs, and service awards.
[¶62]
[signatures]
[¶63] The Honorable Norman G. Anderson, Surrogate
Judge, sitting in place of McEvers, J., disqualified.
Crothers, Justice, specially concurring.
[¶64] I generally agree with the majority opinion. I
write separately to make clear my view that the
rationale underpinning Part III (B) is not naked
authority for the State to appropriate funds for any
cause describable as a "moral obligation." Rather, in
the context of our constitutional gift clause,
permissible
appropriations
are
limited
to
circumstances where a legal obligation exists, even
though the obligation may not be presently enforceable
for reasons such as the statute of limitations.
[¶65] The majority opinion seems to acknowledge the
limitation about which I write, including citations to
judicial decisions from California and Wyoming. See
majority opinion, at ¶¶ 31-32. In those cases, legal
claims against the state existed but could not be
asserted due to the passage of time. Id. The states

A-35

essentially waived the statute of limitations and the
respective state's highest courts held the waiver was
not a violation of their gift clauses restrictions. Id.
However, the majority opinion also cites The Trustees
of the Exempt Firemen's Benev. Fund of the City of New
York v. Roome, 93 N.Y. 313, 316 (1883). There, New
York interpreted its constitutional gift clause as
authorizing a statute directing payment to firemen
"after the service ended, and when there was no legal
or equitable obligation operating upon the State." Id.
at 326. In Roome, the obligation was purely moral. No
legal obligation existed before passage of the law at
issue. I therefore would not cite or rely on the Roome
decision as persuasive authority for interpretation of
North Dakota's gift clause.
[¶66]
[signatures]
UNSWORN DECLARATION
I, Petra H. Mandigo Hulm, Clerk of the Supreme
Court of North Dakota, declare under penalty of
perjury that this is a full, true and correct copy of the
original as the same remains on file in my office.
Signed and Seal of this Court affixed
this 30th day of September, 2020
PETRA H. MANDIGO HULM
Clerk, Supreme Court
By: Becky Mosbrucker
Deputy Clerk

A-36

IN THE SUPREME COURT
STATE OF NORTH DAKOTA
ORDER ON PETITION FOR REHEARING
Supreme Court No. 20190203
Cass Co. No. 2018-CV-00089
Paul Sorum, Marvin Nelson, Michael Coachman,
Charles Tuttle and Lisa Marie Omlid, each on behalf
of themselves and all similarly situated
tax payers of the State of North Dakota,
Plaintiffs, Appellees, and CrossAppellants,
v.
The State of North Dakota, The Board of University
and School Lands of the State of North Dakota, The
North Dakota Industrial Commission, The Hon.
Douglas Burgum, in his official capacity as Governor
of the State of North Dakota, and the Hon. Wayne
Stenehjem, in his official capacity as Attorney
General of North Dakota,
Defendants, Appellants, and CrossAppellees
[¶1] This appeal having been heard by the Court at the
March 2020 Tenn and an opinion having been filed on
July 30, 2020 by:
[¶2] Chief Justice Jon J. Jensen, Justice Gerald W.
VandeWalle, Justice Daniel J. Crothers, Justice Jerod
E. Tufte, and Surrogate Judge Norman Anderson
sitting in place of Justice Lisa Fair McEvers;

A-37

[¶3] and a petition for rehearing having been filed by
Terrance W. Moore and J. Robert Keena, for the
Appellees and Cross-Appellants Marvin Nelson,
Michael Coachman, Charles Tuttle, and Lisa Marie
Omlid, and the Court having considered the matter, it
is hereby ORDERED AND ADJUDGED, that the
petition be and is hereby DENIED.
[¶4] AND IT IS FURTHER ORDERED, that this cause
be and it is hereby remanded to the District Court for
further proceedings according to law, and the
judgment of this Court.
Dated: September 21, 2020
By the Court:
[signatures]

A-38

STATE OF NORTH DAKOTA IN DISTRICT COURT
COUNTY OF CASS
EAST CENTRAL JUDJCIAL
DISTRICT
File No. 09-2018-CV-89
Paul Sorum, Marvin Nelson, Michael Coachman,
Charles Tuttle and Lisa Marie Omlid, each on
behalf of themselves and all similarly situated
tax payers of the State of North Dakota,
Plaintiffs,
ORDER ON
CROSS-MOTIONS FOR
SUMMARY JUDGMENT
-vsThe State of North Dakota, The Board of University
and School Lands of the State of North Dakota, The
North Dakota Industrial Commission, The Hon.
Douglas Burgum, in his official capacity as Governor
of the State of North Dakota, and the Hon. Wayne
Stenehjem, in his official capacity as Attorney
General of North Dakota,
Defendants.
[¶1] The Plaintiffs commenced this action against the
named Defendants, collectively representing the State,
seeking to have N.D.C.C. § 61-33.1 ("The Act" or 6133.1), declared unconstitutional as an unlawful
transfer without consideration of State-owned
resources to private parties. As will be further set forth
in more detail, one feature of The Act was that, with
some exception, the State would abdicate any claim of
mineral interests between the ordinary high
watermark ("OHWM") of the historical Missouri
riverbed channel and what is essentially the shoreline

A-39

of the current Lake Sakakawea. The effective date of
The Act is April 21, 2017.
[¶2] The title of the Act is State Ownership of
Missouri Riverbed. The text of The Act is as follows:
61-33.1-01. Definitions. (Retroactive application
- See note)
For purposes of this chapter, unless the context
otherwise requires:
1. “Corps survey” means the last known
survey conducted by the army corps of
engineers in connection with the corps'
determination of the amount of land
acquired by the corps for the impoundment
of Lake Sakakawea and Lake Oahe, as
supplemented by the supplemental plats
created by the branch of cadastral survey of
the United States bureau of land
management.
2. “Historical Missouri riverbed channel”
means the Missouri riverbed channel as it
existed upon the closure of the Pick-Sloan
Missouri basin project dams, and extends
from the Garrison Dam to the southern
border of sections 33 and 34, township 153
north, range 102 west which is the
approximate location of river mile marker
1,565, and from the South Dakota border to
river mile marker 1,303.
3. “Segment” means the individual
segment maps contained within the corps

A-40

survey final project maps for the Pick-Sloan
project dams.
4. “State phase two survey” means the
“Ordinary High Water Mark Survey Task
Order #2 Final Technical Report”
commissioned by the board of university
and school lands.
61-33.1-02. Mineral ownership of land inundated
by Pick-Sloan Missouri basin project
dams..(Retroactive application .. See note)
The state sovereign land mineral ownership of
the riverbed segments inundated by Pick-Sloan
Missouri basin project dams extends only to the
historical Missouri riverbed channel up to the
ordinary high water mark. The state holds no
claim or title to any minerals above the
ordinary high water mark of the historical
Missouri riverbed channel inundated by PickSloan Missouri basin project dams, except for
original grant lands acquired by the state
under federal law and any minerals acquired
by the state through purchase, foreclosure, or
other written conveyance. Mineral ownership of
the riverbed segments inundated by Pick-Sloan
Missouri basin project dams which are located
within the exterior boundaries of the Fort
Berthold reservation and Standing Rock Indian
reservation is controlled by other law and is
excepted from this section.
61-33.1-02. Mineral ownership of land inundated
by Pick-Sloan Missouri basin project dams.
(Retroactive application - See note)

A-41

The state sovereign land mineral ownership of
the riverbed segments inundated by PickSloan Missouri basin project dams extends
only to the historical Missouri riverbed
channel up to the ordinary high water mark.
The state holds no claim or title to any
minerals above the ordinary high water mark
of the historical Missouri riverbed channel
inundated by Pick-Sloan Missouri basin
project dams> except for original grant lands
acquired by the state under federal law and
any minerals acquired by the state through
purchase J foreclosure, or other written
conveyance. Mineral ownership of the riverbed
segments inundated by Pick-Sloan Missouri
basin project dams which are located within
the exterior boundaries of the Fort Berthold
reservation and Standing Rock Indian
reservation is controlled by other law and is
excepted from this section.
3. The selected and approved firm shall
review the delineation of the ordinary high
water mark of the corps survey segments. The
review must determine whether clear and
convincing evidence establishes that a portion
of the corps survey does not reasonably reflect
the ordinary high water mark of the historical
Missouri riverbed channel under state law.
The following parameters, historical data,
materials, and applicable state laws must be
considered in the review:
a. Aerial photography of the historical
Missouri riverbed channel existing before

A-42

the closure date of the Pick-Sloan project
dams;
b. The historical records of the army
corps of engineers pertaining to the corps
survey;
c. Army corps of engineers and United
States geological survey elevation and
Missouri River flow data;
d. State case law regarding the
identification of the point at which the
presence of action of the water is so
continuous as to destroy the value of the
land for agricultural purposes, including
hay lands. Land where the high and
continuous presence of water has
destroyed its value for agricultural
purposes, including hay land, generally
must be considered within the ordinary
high water mark. The value for
agricultural purposes is destroyed at the
level where significant, major, and
substantial terrestrial vegetation ends or
ceases to grow. Lands having agricultural
value capable of growing crops or hay, but
not merely intermittent grazing or
location of cattle, generally must be
considered above the ordinary high water
mark; and
e. Subsection 3 of section 61-33-01 and
section 47-06-05, which provide all
accretions are presumed to be above the
ordinary high water mark and are not
A-43

sovereign lands. Accreted lands may be
determined to be within the ordinary
high water mark of the historical
Missouri riverbed channel based on clear
and convincing evidence. Areas of lowlying and flat lands where the ordinary
high water mark may be impracticable to
determine due to inconclusive aerial
photography or inconc1usive vegetation
analysis must be presumed to be above
the ordinary high water mark and owned
by the riparian landowner.
4. The firm shall complete the review within
six months of entering a contract with the
department of mineral resources. The
department may extend the time required to
complete the review if the department deems
an extension necessary.
5. Upon completion of the review, the firm
shall provide its findings to the department.
The findings must address each segment of the
corps survey the firm reviewed and must
include a recommendation to either maintain
or adjust, modify, or correct the corps survey as
the de1ineation of the ordinary high water
mark for each segment. The firm may
recommend an adjustment, modification, or
correction to a segment of the corps survey only
if clear and convincing evidence establishes the
corps survey for that segment does not
reasonably reflect the ordinary high water
mark of the historical Missouri riverbed
channel under state law.

A-44

6. The department shall publish notice of
the review findings and a public hearing to be
held on the findings. The public must have
sixty days after publication of the notice to
submit comments to the department. At the
end of the sixty days, the department shall
hold the public hearing on the review.
7. After the public hearing, the department,
in consultation with the firm, shall consider all
public comments, develop a final
recommendation on each of the review
findings, and deliver the final
recommendations to the industrial
commission, which may adopt or modify the
recommendations. The industrial commission
may modify a recommendation from the
department only if it finds clear and
convincing evidence from the resources in
subsection 3 that the recommendation is
substantially inaccurate. The industrial
commission's action on each finding will
determine the delineation of the ordinary high
water mark for the segment of the river
addressed by the finding.
61-33.1-04. Implementation. (Retroactive
application - See note)
1. Within six months after the adoption of
the final review findings by the industrial
commission:
a. Any royalty proceeds held by operators
attributable to oil and gas mineral tracts
lying entirely above the ordinary high

A-45

water mark of the historical Missouri
riverbed channel on both the corps survey
and the state phase two survey must be
released to the owners of the tracts,
absent a showing of other defects
affecting mineral title; and
b. Any royalty proceeds held by the board
of university and school lands
attributable to oil and gas mineral tracts
lying entirely above the ordinary high
water mark of the historical Missouri
riverbed channel on both the corps survey
and the state phase two survey must be
released to the relevant operators to
distribute to the owners of the tracts,
absent a showing of other defects
affecting mineral title.
2. Upon adoption of the final review findings
by the industrial commission:
a. The board of university and school
lands shall begin to implement any
acreage adjustments, lease bonus and
royalty refunds, and payment demands
as may be necessary relating to stateissued oil and gas leases. The board shall
complete the adjustments, refunds, and
payment demands within two years after
the date of adoption of the final review
findings.
b. Operators of oil and gas wells affected
by the final review findings immediately
shall begin to implement any acreage

A-46

and revenue adjustments relating to
state-owned and privately owned oil and
gas interests. The operators shall
complete the adjustments within two
years after the date of adoption of the
review findings. Any applicable
penalties, liability, or interest for late
payment of royalties or revenues from an
affected oil or gas well may not begin to
accrue until the end of the two- year
deadline. The filing of an action under
section 61-33.1-05 tolls the deadline for
any oil and gas well directly affected by
the action challenging the review
finding.
61-33.1-05. Actions challenging review findings.
(Retroactive application - See note)
An interested party seeking to bring an action
challenging the review findings or
recommendations or the industrial commission
actions under this chapter shall commence an
action in district court within two years of the
date of adoption of the final review findings by
the industrial commission. The plaintiff
bringing an action under this section may
challenge only the final review finding for the
section or sections of land in which the
plaintiff asserts an interest. The state and all
owners of record of fee or leasehold estates or
interests affected by the finding,
recommendation, or industrial commission
action challenged in the action under this
section must be joined as parties to the action.
A plaintiff or defendant claiming a boundary

A-47

of the ordinary high water mark of the
historical Missouri riverbed channel which
varies from the boundary determined under
this chapter bears the burden of establishing
the variance by clear and convincing evidence
based on evidence of the type required to be
considered by the engineering and surveying
firm under subsection 3 of section 61-33.1-03.
Notwithstanding any other provision of law,
an action brought in district court under this
section is the sole remedy for challenging the
final review, recommendations, and
determination of the ordinary high water
mark under this chapter, and preempts any
right to rehearing, reconsideration,
administrative appeal, or other form of civil
action provided under law.
61-33.1-06. Public domain lands. (Retroactive
application - See note)
Notwithstanding any provision of this chapter
to the contrary, the ordinary high water mark
of the historical Missouri riverbed channel
abutting non-patented public domain lands
owned by the United States must be
determined by the branch of cadastral study of
the United States bureau of land management
in accordance with federal law.
61-33.1-07. State engineer regulatory
jurisdiction. (Retroactive application - See
note)
This chapter does not affect the authority of the
state engineer to regulate the historical

A-48

Missouri riverbed channel, minerals other than
oil and gas, or the waters of the state, provided
the regulation does not affect ownership of oil
and gas minerals in and under the riverbed or
lands above the ordinary high water mark of
the historical Missouri riverbed channel
inundated by Pick-Sloan Missouri basin project
dams.
[¶3]
The note, which accompanied the passage of
The Act states as follows:
As provided by S.L. 2017, ch. 426 § 4, this
section is retroactive to the date of the closure
of the Pick-Sloan Missouri Basin project dams.
The ordinary high watermark determination
under this act is retroactive and applies to all
oil and gas wells spud after January 1, 2006, for
purposes of oil and gas mineral and royalty
ownership.
[¶4] The Plaintiffs contend that The Act
unconstitutionally gives away state-owned mineral
interests to 108,000 acres underneath the OHWM
of the Missouri River/Lake Sakakawea, and above
the historic OHWM of the Missouri River (the Affected
Area") and gives away over $205 million in payments
in violation of the Constitution of the State of North
Dakota. The Plaintiffs contend that when the
Missouri River was dammed to form Lake
Sakakawea, the State became the owner of the
lakebed roughly defined as the area between the
ordinary high watermark of the Historic Missouri
River channel and the ordinary high watermark of
Lake Sakakawea, in addition to the bed of the
historic Missouri River. The Plaintiffs' Complaint

A-49

alleges that the State affirmatively gives away its
sovereign ownership in 108,000 acres of mineral
rights held by the Board of University and School
Lands between the currently existing OHWM of the
Missouri River/Lake Sakakawea and the historical
Missouri Riverbed channel. The Plaintiffs further
state that The Act goes retroactively back to 2006 for
purposes of giving away oil and gas mineral rights of
ownership and royalties to private parties. The
Plaintiffs contend that the Act is unlawful and
unconstitutiona1 for the following reasons:
1. 61-33.1 violates the public trust
doctrine and the anti-gift clause of the
North Dakota Constitution, Article X,
Section 18.
2. The Act violates the privileges
and immunities clause of the State of
North Dakota Constitution, Article 1,
Section 21 by arbitrarily affecting the
substantial property rights of upland
landowners differently along the Missouri
River as opposed to other navigable bodies
of water in the State of North Dakota and
for leases prior to 2006.
3. The Act violates the North
Dakota Constitution, Article IV, Section 13,
because The Act is a local or special law
that impermissibly benefits a particular
locality and private individuals.
4. The Act violates the North
Dakota State Constitution, Article XI,
Section 3, which provides that all the

A-50

flowing streams and natural water courses
shall forever remain the property of the
State
for
mining,
irrigating
and
manufacturing.
[¶5] The Plaintiffs sought a preliminary injunction to
enjoin the entire Act. The Court, by Order filed June
26, 2018 (Odyssey No. 446), partially granted the
Plaintiffs' motion for preliminary injunction and
enjoined the Defendants from distributing the
following items of revenue, relating to the leasing of
oil and gas minerals within the area of land that is
subject to N.D.C.C. § 61-33.1, that have been collected
prior to April 21, 2017, the effective date of The Act,
and held in the Strategic Investment and
Improvement Funds (SIIF):
a. Oil and gas lease bonus and rents;
b. Royalties collected; and
c. Royalties escrowed.
[¶6] The parties have brought cross-motions for
summary judgment. The parties stipulated to
undisputed facts for purposes of their cross-motions
for summary judgment. The parties reserve the right
to submit additional material facts which, though
not stipulated as undisputed, may, in fact, be
indisputable. The stipulation of the undisputable facts
(found at Odyssey #455) is as follows:
[¶7] NOW, THEREFORE, the parties, for purposes of
presenting and deciding the parties' cross-motions for
summary judgment on Plaintiffs' challenge to N.D.C.C.
Ch. 61-33.1, stipulate and agree that the following

A-51

facts are undisputed for purposes of cross motions for
summary judgment.
A.

Introduction.

[¶8] The Missouri River was a navigable body of water
at the time of North Dakota's statehood. By virtue of
its navigability at statehood, the State of North Dakota
(the "State") received absolute right to the bed of the
Missouri River through the equal footing doctrine. The
State's absolute right to the bed of the Missouri
River received through the equal footing doctrine
includes the minerals1 located within the bed of the
Missouri River.
B.
Garrison Dam Constructed by the
Federal Government to Manage
Missouri River Flooding
[¶9] The United States Congress authorized the
construction of Garrison Dam through the Flood
Control Act of 1944. Garrison Dam is one of six PickSloan Missouri basin project dams authorized under
the Flood Control Act of 1944. The water impounded
by the closure of Garrison Dam became known as
Lake Sakakawea.
[¶10] Pursuant to the authorization to construct
Garrison Dam, the Army Corps of Engineers ("the
1

The word “minerals” includes but is not limited to, oil and gas
and related hydrocarbons. Moreover, deeds within the
Department of Trust Lands, the administrative agency carrying
out the daily operations of the Land Board, indicate that the
Anny Corps of Engineers appears to have reserved to some
grantees in such deeds oil and gas interests, not other mineral
interests such as coal.

A-52

Corps”) acquired, by purchase or condemnation,
property rights to allow for impounding water and the
operation of Garrison Dam.
[¶11] Before acquiring2 any private property for
Garrison Dam, the Corps determined how much
property it would need to acquire for impounding
water and the operation of Garrison Dam. This
determination is defined as the “Corps Survey” in
N.D.C.C. § 61-33.1-01(1) and shall be referred to
herein as the “Corps Survey.”
[¶12] The Corps Survey was used to determine the
boundary of what the Corps believed was property
located between the location of the river bank of the
Missouri River (“Lower Garrison Acquisition Line”),
up to an elevation of 1854' mean sea level (the “Upper
Garrison Acquisition Line”), and extending from
Garrison Dam to the southern border of sections 33
and 34, Township 153 North, Range 102 West,
Williams County, North Dakota1 the approximate
location of which is river mile marker 1565 (the “Total
Garrison Take Area”). The sum of the surface area
within the Total Garrison Take Area is approximately
368,000 acres.
[¶13] The area located (a) between the Corp Survey's
determination of the river bank of the Missouri River
up to an elevation of 1854' mean sea level and (b)
between the northern boundary of the Fort Berthold
Indian reservation and the southern border of sections
33 and 34, Township 153 North, Range 102 West,
Williams County, North Dakota, is approximately
2

As used herein, the term "acquire" or "acquired" includes both
condemnation and purchase.

A-53

123,000 acres. The approximate 123,000 acre area
shall be referred to herein as the "Affected Area."
[¶14] In some instances during the Garrison Dam
acquisition process, the Corps acquired both the
surface rights and mineral rights, while in other
instances the owners reserved an interest in minerals.
See Court Doc. No. 93 (An example of a reservation of
the mineral rights in favor of landowners).
[¶15] Within the Affected Area and other portions of
the Total Garrison Take Area are parcels of land and
related mineral interests the State has acquired
through purchase, foreclosure or other written
conveyance.
[¶16] The Defendant Board of University and School
Lands of the State of North Dakota (the “Land Board”)
manages, operates and supervises oil, gas and related
hydrocarbons under N D.C.C. ch. 61-33. The Land
Board is authorized to enter into any agreements
regarding such property, and may enforce all
subsurface rights of the owner in its own name.
C.

Board of University and School
Lands Manages Minerals

[¶17] Parties can request that certain tracts managed
by the Land Board be nominated for mineral auction.
A true and correct copy of the Land Board's current
form for mineral auction nomination is attached hereto
as Exhibit “A.” (Odyssey #474).
[¶18] Oil and gas mineral interests auctioned and
leased by the Land Board are leased pursuant to a
standard Oil and Gas Lease. A true and correct copy

A-54

of the Land Board's current standard Oil and Gas
Lease is attached hereto as Exhibit "B," and by this
reference is incorporated herein. (Odyssey #471).
[¶19] The Land Board has previously relied upon
reports, studies and delineations such as Technical
Report for the Ordinary High Water Mark Delineation
of the Yellowstone River and Missouri River, dated
November, 2010 ("Phase I") and the Technical Report
for the Ordinary High Water Mark Investigation for
the Missouri River Under Lake Sakakawea, dated
March, 2011 ("Phase 2") for leasing within the Affected
Area. For ease of reference the Phase 1 delineation and
Phase 2 investigation are referred to herein as
"reports." A true and correct copy of the Phase 1 report
is attached hereto as Exhibit "C," (Odyssey #1s 479485) and a true and correct copy of the Phase 2 report
is attached as Exhibit ''D." The Phase 2 report is
defined at N.D.C.C. § 61-33.1-01(4) as the "State phase
two survey." (Odyssey #'s 486-491).
[¶20] The Land Board's request for proposal for the
Phase 1 report is filed with the Court as Court Doc. No.
236, Bates Number SD 508-517.
[¶21] The Land Board's request for proposal for the
Phase 2 report is filed with the Court as Court Doc. No.
236, Bates Number SD518-525.
[¶22] There is some overlap between the Phase 1 and
Phase 2 reports.
[¶23] Governor Dalrymple made a statement
regarding the Land Board's mineral leasing practices
and use of the Phase 1 and Phase 2 reports during the
Land Board’s October 18, 2016 meeting A true and

A-55

correct copy of the minutes of the October 18, 2016
meeting of the Land Board are attached hereto as
Exhibit "E." (Odyssey #472).
[¶24] Disputes between the State, private parties
(including those claiming as mineral owners) and/or
the federal government have arisen regarding areas in
which the Land Board claims ownership of mineral
interests and the location of the upper boundary line
under Phase 1 and Phase 2.
[¶25] Two bills were introduced during the 2017 North
Dakota Legislative Session - Senate Bill 2134 ("SB
2134") and House Bill 1199. Because SB 2134 was
making its way through the legislative process, House
Bill 1199 was defeated in the North Dakota Senate.
[¶26] SB 2134 was passed by the North Dakota Senate
on April 18, 2017. SB 2134, now codified as N.D.C.C.
Ch. 61-33.1, became effective April 21, 2017.
[¶27] As part of SB 2134, a fiscal note was provided, a
true and correct copy of which has been filed at Court
Doc. No. 3.
[¶28] Under N.D.C.C. § 61-33.1-03(1), the Corps
Survey is to be 'considered the presumptive
determination of the ordinary high water mark of the
historical Missouri riverbed channel, subject only to
the review process under [N.D.C.C. 61-33.1-03] and
judicial review as provided in [chapter 61-33.1]."
[¶29] Under N.D.C.C. § 61-33.1-03(2), the Legislature
directed the Department of Mineral Resources
(“DMR”), a department under the authority of the
North Dakota Industrial Commission (“NDIC”), to

A-56

hire an engineering firm to perform a review of the
"delineation of the ordinary high water mark of the
corps survey segments." N.D.C.C. § 61-33.1-03(2)-(3)
and § 61-33.1-06. The DMR hired Wenck Associates,
Inc. (“Wenck”) to conduct this task by considering the
parameters listed in N.D.C.C. § 61-33.1-03.
[¶30] Wenck completed its review of the Corps Survey
and presented its recommendation to the NDIC on
April 17, 2018. Court Doc. Nos. 293-365. Pursuant to
N.D.C.C. § 61-33.1-03(5), Wenck's April 17, 2018,
report recommended findings for the adjustment,
modification and correction to the OHWM of the
historical Missouri riverbed channel for the reviewed
segments of the Corps Survey. Court Doc. Nos. 293365.
[¶31] Wenck's analysis of the Corps Survey reflected
16,687 of Missouri riverbed channel acres are within
the project boundary. Court Doc No. 295 (Bates No.
736). Wenck determined, after its review of the Corps
Survey, that clear and convincing evidence established
the OHWM of the historical Missouri riverbed channel
was different than the Corps Survey. Court Doc. Nos.
293-365. Wenck determined the total acres within the
OHWM of the historical Missouri riverbed channel to
be approximately 27,089 acres, or an increase of 10,042
acres. Court Doc. No. 295 (Bates No. 736).
[¶32] The DMR published notice of Wenck's findings
and notice of a public hearing on such findings on April
21, 2018. The 60-day public comment period provided
under the statutory process set out in N.D.C C. § 6133w-1-03(6) ended on June 20, 2018. The public
hearing required by N.D.C.C. § 61-33.1-03(6) was on
June 26, 2018 at 9:00 a.m.

A-57

Determining Ownership of the Minerals
Under Lake Sakakawea
[¶33] Under the equal-footing doctrine, at the time of
statehood, North Dakota acquired title to the bed of the
Missouri River up to the ordinary high water mark as
the river channel then existed. Reep v. State, 2013 ND
253, ¶ 14, 841 N.W.2d 664. Building off the equalfooting doctrine, the Plaintiffs assert that the State
held title to the entire lake bed of Lake Sakakawea
before 61-33.1 became law. The Plaintiffs support this
contention by citing language from a series of North
Dakota Supreme Court cases. The Plaintiffs contend
that because the Missouri River was navigable in 1889,
the State took sovereign title to its bed. The Missouri
River (i.e. Lake Sakakawea) is still navigable and its
bed still belongs to the State. The Plaintiffs contend
that what is essentially the shoreline of Lake
Sakakawea is the current ordinary high watermark of
the Missouri River. Plaintiffs contend that title to the
riverbed shifts as the OHVVM shifts, even as affected
by the Garrison Dam. The Plaintiffs refer to a string
of North Dakota cases which confirm the State
ownership of mineral rights to support the Plaintiffs'
contention that the State owns mineral rights to the
entire lake bed of Lake Sakakawea. Quoting from
paragraph 18 of Plaintiff's brief:
[¶18] As a matter of law, the State's mineral
ownership has been decided by the North
Dakota Supreme Court in a long line of
cases. The State owns these mineral rights.
Reep, 2013 N.D. 253,¶24; State ex. rel.
Sprynczynatyk v. Mills, 999 N.D. 75, ¶4,
592 N.W. 2d 591, 592 (N.D. 1999) ("Mills
II"); J.P. Furlong Enters. v. Son Exploration

A-58

and Prod. Co., 423 N.W. 2d 130, 132 (N.D.
1988); Hoque v. Bourgois, 71 N.W. 2d 471
52 (N.D. 1955); ...
[¶34] The Court does not find the Plaintiffs' argument
that the State holds title to the entire lake bed before
61-33.1 persuasive. The equal-footing doctrine
determines which submerged lands are granted to a
State at the time of statehood. PPL Montana, LLC v.
Montana, 565 U.S. 576, 590-92 (2012). Bodies of
water, particularly large rivers such as the Missouri,
move or change over time. The equal-footing doctrine
vests title to the river in the State at the time of
statehood but does not operate to determine how the
movement of the river over time, past the time of
statehood, affects title to the riverbed. This is
determined by the laws of the State. 'The role of equalfooting is ended, and the land is subject to the laws of
the State. Oregon ex. rel. State Land Bd. v. Corvallis
Sand and Gravel Company, 429 U.S. 363, 371-72, 376
(1977). Lake Sakakawea did not exist at statehood.
Thus, the equal-footing doctrine does not vest the State
with title to Lake Sakakawea outside the ordinary high
water mark of ]its natural channel. The lake was not
created by river channel movements such as
accretion or erosion. The lake was created by the
Garrison Dam project. This lake is substantially
different
from the Missouri River whose banks
meander from time to time through natural forces. The
cases cited by the Plaintiffs can be distinguished
adequately. For example, the Furlong case deals with
an abandoned riverbed. The Act, 61-33.1, deals with an
artificial reservoir created by the Garrison Dam.
Under North Dakota law the State has no right to
acquire private property without compensation to the
owner. Plaintiffs appear to be urging a construction of

A-59

the law that would allow the State to claim ownership
of deliberately flooded private land without offering
any compensation for it. The Plaintiffs however, might
be recognizing that even if the State did acquire title to
the minerals under the lake bed of Lake Sakakawea,
the owners (or former owners) might be entitled to
compensation. The Plaintiffs have cited a recent North
Dakota Supreme Court case, Wilkinson v. Bd. of Univ.
& School Lands, 2017 N.D. 231, ,r 24, 903 N.W. 2d 51.
As will be explained later in this opinion, this
concession by the Plaintiffs undermines their claim of
unconstitutionality to that part of the act which
abdicates any claim of title which the State may be
making to minerals under the bed of Lake Sakakawea
above the ordinary high water mark of the historic
Missouri River channel. The Court will also find that
Mills II does not apply. Mills III like the Furlong case,
considered an artificial change to a river channel as
opposed to the flooding of condemned land to create a
lake. The Furlong case stated a policy of ensuring that
the State's title would follow the movement of the river
to protect the public's interest in navigability and other
important features of the public trust doctrine such as
bathing, swimming, recreation and fishing. The Act
has not had any effect on any of those uses of the lake.
[¶35]
It is undisputed that the United States
government has the power to acquire land for flood
control purposes. It would be a curious result if the
federal government would, through the flooding, lose
title to property that it acquired either through
purchase or condemnation. Even if the equal footing
doctrine extended the State's claim of title to the
ordinary high watermark of Lake Sakakawea, any
interpretation of State law that would divest the title
of the federal government in lands that the federal

A-60

government acquired would appear to run afoul of the
Supremacy Clause of the United States Constitution.
43 U.S.C. § 1301, et seq is the Submerged Land Act
(SLA) which was enacted by Congress. The effect of
this Act was, essentially, to confirm that the State
retained title to the beds of navigable waters within its
boundaries as to any claim of the United States.
Section 1313 of the SLA excluded from The Act lands
acquired by the United States through eminent
domain or purchase.
There is excepted from the operation of § 1311 of
this title (a) All tracts or parcels of land together
with all accretions thereto, resources
therein, or improvements thereon...
acquired by the United States by
eminent domain proceedings, purchase,
cession, gift, or otherwise in a
proprietary capacity...
[¶36] It certainly appears that it was Congress's intent
that states do not acquire lands under the equalfooting doctrine, public trust law, the Submerged
Lands Act, or otherwise when the United States
condemns or purchases the rand in a proprietary
capacity. This is the case in this action. The United
States acquired the land, and in some cases the
mineral interests, through purchase or condemnation.
[¶37] Following the conclusion that the State does not
own minerals under the bed of Lake Sakakawea above
the determined ordinary high watermark of the
historic Missouri River, it follows that any abdication
of any claim to such minerals cannot violate the public

A-61

trust in regards to those mineral rights. The Act in no
way interferes with enjoyment by the public of the
important features of Lake Sakakawea such as
swimming, recreation, fishing, irrigation and water
supply. Affirming the State's non-claim to minerals
that the State does not believe it owns is not a violation
of the public trust.
[¶38] The Act does not violate the water course
provision of the North Dakota Constitution. The water
course clause of the Constitution, N.D. Const. art. XI,
Section 3 reads as follows:
AH flowing streams and natural water
courses shall forever remain the property of
the State for mining, irrigation and
manufacturing purposes.
[¶39] The North Dakota Supreme Court has held that
this provision applies only to the waters of flowing
streams and natural water courses. Burlington N.
& Santa Fe Ry. Co. v. Benson Cty. Water Res. Dist.,
2000 N.D. 182, ¶11, 618 N.W. 2d 155. The Supreme
Court cited the case of Mosark-Mahoning Co. v. State,
37 N.W. 2d 488, 493 (N.D. 1949).
The rights of the grantees under the patent
issued by the United States government
were fixed and vested as of the date of
those patents. The riparian rights that the
grantees thus acquired were valuable
property rights.
The State cannot constitutionally divest
the owners thereof and transfer the
property to itself without the payment of
due compensation under the exercise of the

A-62

powers of eminent domain. (Citations
omitted).
[¶40] The Court continued quoting from State v. Brace,
36 N.W. 2d 330 (N.D. 1949).
We are here dealing with titles vested by
patents from the United States. Such
titles cannot be affected by the
declaration of navigability contained in
Section 61-1501, RCND 1943. The
legislature may not adopt a retroactive
definition of navigability that would
destroy a title already vested under a
federal grant, or transfer to the State a
property right and a body of water or the
bed thereof that had been previously
acquired by a private owner.
[¶41] Clearly, the State has long recognized that
property acquired by patent (and presumably
subsequent conveyances of that patented property)
cannot be acquired by the State without just
compensation paid to the owner. Neither the public
trust doctrine nor the water course clause would
render the act invalid. In regards to mineral
ownership, the Act appears to be an effort to codify
existing law and policy regarding the State's
ownership of the lake bed and minerals in the disputed
area.
[¶42) The Plaintiffs also contend that the Act is a
violation of equal protection. The equal protection
clause of the North Dakota Constitution is found at
Article I, § 21, and Article I § 22, N.D. Const. Art. I, §
21 provides:

A-63

No special privileges or immunities shall
ever be granted which may not be altered,
revoked or repealed by the legislative
assembly; nor shall any citizen or class of
citizens be granted privileges or
immunities which upon the same terms
shal1 not be granted to all citizens.
[¶43] N.D. Const. Art. I, § 22, provides:
All laws of a general nature shall have a
uniform operation.
[¶44] 'The equal protection clauses of the state and
federal constitutions do not prohibit legislative
classifications or require identical treatment of
different groups of people." State v. Leppert, 2003 N.D.
15, ¶ 7, 656 N.W. 2d 718. "The equal protection
guarantee does not forbid classifications, but simply
keeps government decision-makers from treating
differently persons who are in all relevant respects
alike." Haney v. N.D. Workers Comp. Bureau, 518
N.W. 2d 195, 197 (N.D. 1996).
[¶45] The North Dakota Supreme Court has
distinguished general laws from special laws. In the
case of MCI Telecommunications Corp. v. Heitkampt
the Court stated:
A statute relating to persons or things as a
class is a general law; one relating to
particular persons or things of a class is
special. Special laws are made for individual
cases of less than a class, due to peculiar
conditions and circumstances. We have
recently said that special laws language of

A-64

our state constitution constrains laws
relating only to particular persons or things
of a class as distinguished from a general
law, which applies to all things or persons of
a class." A statute is not special, but
general, if "it operates equally upon all
persons and things within the scope of the
statute. It operates alike on all persons and
property similarly situated ... in other
words, it operates alike in all cases where
the facts are substantially the same.
523 N.W. 2d 548, 552 (N.D. 1994) (citations
omitted).
[¶46] The Court essentially set up a two prong test to
determine whether a statute is an impermissible
classification. Id. at 552-53. Thus, even if a statute
defined a class or made a classification, the
classification would be constitutional if it is
reasonable. Id. The Court in MCI Telecommunications
stated:
Reasonable classification does not violate
the special laws provision of the North
Dakota constitution. When we examine a
statute to decide if a classification used is
impermissibly particular, that is, special,
rather than general, we examine the
reasonableness of the classification. In
other words, the test of the
constitutionality of a statutory
classification under the special laws
provision of the North Dakota constitution
is the reasonab1eness of the classification.
A "statutory classification challenged under

A-65

the special laws provision of our
constitution is... to be upheld if it is
natural, not arbitrary, and standing upon
some reason having regard to the character
of the legislation of which it is a feature."
523 N.W. 2d at 553 (Citations omitted).
[¶47] The Court would conclude that The Act is a
general law and, even if there was a classification, such
classification is reasonable under the circumstances.
The Act simply distinguishes between navigable
waters of Lake Sakakawea from the navigable waters
acquired at statehood. The statute treats these
different types of water differently.
[¶48]
As previously alluded to, the North Dakota
Supreme Court has recently given direction in a
situation such as this. In the case of Wilkinson v.
Board of University and School Lands, 2017 N.D. 231,
905 N.W. 2d 51, the Court addressed the Plaintiffs’
takings claim under the Fifth Amendment of the
United States Constitution. Justice McEvers noted, “if
the District Court determines the State owns the
minerals, the Plaintiffs will be deprived of the mineral
interests.” Because the federal government had
compensated the Wilkinson's for their surface but not
their minerals, “the Plaintiffs are entitled to
compensation if the government's actions result in a
‘taking’ of the mineral interests.” Thus, even if the
State had some sort of claim to the minerals of the
entire lake bed, the State would be in a position where
it would create liabilities for itself in the form of having
to compensate mineral owners, justly, for the State's
acquisition of those minerals. The State legislature is
completely within its prerogative to weigh the benefits

A-66

and the detriments to pursuing an ownership claim
and to make a rational decision not to pursue an
ownership claim of those minerals and create such a
liability for the State. It was apparently not the State's
policy to intentionally claim mineral ownership in the
disputed area and to codify that policy, and thereby
avoid claims for compensation is certainly within the
authority of the legislature.
Retroactive Application
[¶49] As set forth in paragraph three above, “the
ordinary high watermark determination under this
Act is retroactive and applies to all oil and gas wells
spud after January 1, 2006, for purposes of oil and gas
mineral and royalty ownership.”
Over the years
the State has collected various sums from rent,
royalties, and bonuses, which the State has received
as a lessor of mineral acres. The Act is retroactive to
include all oil and gas wells spud after January 1,
2006. Accordingly, that money already collected and
in the bank and indisputably owned by the State
would have to be refunded to various claimants. To
make the payments, the act appropriated
$100,000,000.00 for the purpose of mineral revenue
payments for retroactive payments under the Act and
also authorized access to an $87,000,000.00 line of
credit from the Bank of North Dakota. It is the
retroactive portion of this statute that raises serious
issues in regards to certain monetary payments made
to mineral owners whose ownership rights have been
clarified by this statute. While money held in escrow
at the Bank of North Dakota due to title disputes
could certainly be re1eased, royalties and bonuses
collected more than three years prior to the Act for
which no action against the State has been taken

A-67

would be subject to the statute of limitations that
would bar making the claim. N.D.C.C. § 28-01-22.1
limits actions against the State to three years. Thus,
any money required to be refunded under the Act,
which have been collected by the State more than
three years prior to the Act and for which no action
had been brought could not be legally claimed by the
newly determined mineral owner. Such a claim would
be barred by the three year statute of limitations. As
stated in the Defendant's brief:
N.D. Const. Art. X, § 18. It is self-evident
that in order for there to be a gift under
this constitutional provision, the State
must have ownership of the particular
asset that is allegedly being donated, or as
Plaintiffs put it, being 'given away.'
E.G. Solberg v. State Treasurer, 53 N.W.
2d 49 (N.D. 1952).
In this case there are certainly funds going back to
2006 that the State owns. The statute of limitations
would bar any claim made to those funds by a
claimant. The Act removes the statute of limitations,
retroactively, resulting in a transfer of money from
the State to newly determined mineral rights owners
for no value. The Defendants have also pointed out
that the North Dakota Supreme Court has explained
that:
Because the State constitution does not
confer power on the legislature, but is a
limitation on power and, therefore, the
legislature may enact any law not
expressly or impliedly forbidden by the
Constitution of the State or prohibited by

A-68

the Constitution of the United States, the
legislature may in the exercise of its power
appropriate and expend money for
whatever purpose it pleases unless its
action violates a limitation found, either
expressly or impliedly in the Constitution.
Within these limits legislative action is not
subject to control by the courts. Verry v.
Trendbath, 148 N.W. 2d 567, 571 (N.D.
1967).
[¶50] Giving money to newly adjudicated mineral
owners, who had no legal basis to make a claim for that
money, is a direct violation of Article X, § 18 of the
North Dakota Constitution which prohibits the State
from giving away state assets without receiving like
value in return. The anti-gift clause prohibits the State
from giving away public resources. It applies to any
assets, including minerals, funds derived from trust
property, real property, and other tangible assets.
Solberg, 33 N.W. 2d at 53-55. Regardless of the
intention, the result of this transfer will be, in part, for
those claims that would be otherwise barred by the
statute of limitations, a give-away of a state asset. An
incidental or ostensible public purpose will not save its
constitutionality. Stutsman v. Arthur, 16 N.W. 2d 449J
454 (N.D. 1944).
CONCLUSION
[¶51] Summary judgment is a procedural device for
the prompt resolution of a controversy on the merits
without a trial if there are no genuine issues of
material fact or inferences that can reasonably be
drawn from undisputed facts, or if the only issues to
be resolved are questions of law. Hamilton v. Woll,

A-69

2012 N.D. 238, ¶9, 623 N.W. 2d 754. Motions for
summary judgment are governed by Rule 56 of the
North Dakota Rules of Civil Procedure, which
provides:
Judgment shall be rendered forthwith if the
pleadings, depositions, answers to
interrogatories, and admissions on file,
together with the affidavits, if any, show
that there is no genuine issue as to any
material fact and that any party is entitled
to a judgment as a matter of law.
[¶52] The Plaintiffs Complaint is a facial
constitutional challenge to the Act. The Plaintiffs
contend that the Act is unconstitutional on its face. As
stated by the United States Supreme Court in the case
of United States v. Salerno, 481 U.S. 739, 745 (1987);
A facial challenge to a legislative act is,
of course, the most difficult challenge to
mount successfully, since the challenger
must establish that no set of
circumstances exist under which the act
would be valid.
[¶53] The Court concludes that the act, on its face, is
a constitutional act of the North Dakota legislature. It
codifies the State's policy of not making any claims to
the minerals above the ordinary high water mark of
the historic Missouri River channel as previously
determined by the Army Corp of Engineers study.
Ironically, by commissioning a new study which
resulted in the Wenck line, the number of acres
determined to be within the ordinary high water mark
of the historical Missouri River bed to be 26,194 acres.

A-70

The original determination by the Army Corp of
Engineers was 16,687 acres. This is actually an
increase of 9,507 acres.
[¶54] The Court is troubled by the implementation
provisions found in N.D.C.C. § 61- 33.1-04, the
resulting implementation, and its retroactive
application.
In the case of Solberg v. State
Treasurer, 53 N.W. 2d 49 (N.D. 1952), the Plaintiff,
Solberg, had reacquired property from the State of
North Dakota.
The State, pursuant to law and
pursuant to explicit titles in its deed to Solberg,
reserved 50 percent of all oil, natural gas and
minerals. In 1951 the legislature enacted a law,
Chapter 231 of the Session Laws of 1951 which stated:
Whenever the State or any of its
departments sell lands to any person, from
whom the State derived the title to such
lands, or to his spouse or to his lineal
decedents in the first degree, the lands
shall be sold free of...
[¶55] The Plaintiff, Solberg, requested that the 50
percent of the oil, natural gas and minerals be
conveyed to him. The North Dakota Supreme Court
reasoned that Solberg accepted a conveyance which
included a reservation in specific language which
could not be misunderstood. This was done according
to the law that was in effect at the time. At the time
the 1951 legislative assembly enacted Chapter 231 the
State owned 50 percent of the oil, natural gas and
minerals therein. The Court found that conveying,
without consideration, a 50 percent interest in the oil,
natural gas and minerals that it owned to Plaintiff
Solberg, without consideration; violated the anti-gift

A-71

clause of the North Dakota Constitution.
[¶56] Section 61-33.1-04(1)(b) essentially requires the
Board of University and School Lands to take funds
which it legally owns and has legally placed in the bank
and without consideration write a check for those
amounts to be distributed to the newly determined
owners of previously disputed tracts.
This is
retroactive to January 11 2006. As such the Court
finds that N.D.C.C. § 61-33.1-04(1)(b) violates on its
face the North Dakota State Constitution's anti-gift
clause found at Article X, § 18 and is thus
unconstitutional.
[¶57] In sum, Defendants motion for summary
judgment is granted to the extent that the Act is
constitutional with the exception of N.D.C.C. § 6133.1-04(1)(b). Plaintiff's motion for summary judgment
is denied with the exception that the Court finds
N.D.C.C. § 61-33.1-04(1)(b) in violation of the antigift clause of the North Dakota State Constitution.
Defendants shall prepare a judgment consistent with
this order.
Dated this 27 day of February, 2019.
BY THE COURT:
s/
Honorable John C. Irby
Judge of the District Court

A-72

STATE OF NORTH DAKOTA
COUNTY OF CASS

IN DISTRICT COURT
EAST CENTRAL
JUDICIAL DISTRICT

Case No. 09-2018-CV-00089
Paul Sorum, Marvin Nelson, Michael Coachman,
Charles Tuttle and Lisa Marie Omlid, each on behalf
of themselves and all similarly situated tax payers of
the State of North Dakota,
Plaintiffs,
ORDER FOR
-vsPRELIMINARY INJUNCTION
The State of North Dakota, The Board of University
and School Lands of the State of North Dakota, The
North Dakota Industrial Commission, The Hon.
Douglas Burgum, in his official capacity as Governor
of the State of North Dakota, and the Hon. Wayne
Stenehjem, in his official capacity as Attorney
General of North Dakota,
Defendants.
[¶1]
The above entitled matter came before the
Honorable John C. Irby, Judge of the District Court,
on Plaintiffs' Motion for Preliminary Injunction
(Court Docs. 32-54 and 368-374), which was resisted
by the Defendants (Court Docs. 120-365 and 394398). Hearing on this motion was held at 10:00 a.m.
on May 21, 2018, and having considered the written
and oral argument presented by the parties
arguments,
[¶2] THE COURT HEREBY ISSUES THE
FOLLOWING FINDINGS OF FACT,
CONCLUSIONS OF LAW AND ORDER:
[¶3]

This Court is not convinced that Plaintiffs'

A-73

case going forward is going to be successful given the
significant burden Plaintiffs must meet for the
constitutional challenge they have brought, but the
Court does have concerns relating to N.D.C.C.
Chapter 61-33.1 retroactive application to the year
2006 and distribution of funds back to this 2006 date
may violate the anti- gift clause of the North Dakota
Constitution (N.D. Const. Att. 10, § 19).
[¶4]
Accordingly, the Plaintiffs' motion for
preliminary injunction is PARTIALLY GRANTED
and the Defendants are enjoined from distributing
the following items of revenue, relating to the leasing
of oil and gas minerals within the area of land that is
subject to N.D.C.C. 61-33.1, that have been collected
prior to the April 21, 2017 the effective date of
N.D.C.C. Chapter 61-33.1 and held in the Strategic
Investment and Improvements Fund (SIIF):
(a)

Oil and Gas Lease Bonus & Rents

(b)

Royalties Collected

(c)

Royalties Escrowed

[¶5]
The Court determines there is no inseparable
harm to the State with the retention of the money
described in Paragraph 4 above.
[¶6]
Any and all other requests made by the
Plaintiffs in their motion for preliminary injunction
are DENIED IN TOTAL, and except for the
enjoining the distribution of money specifically
described in Paragraph 4 above, nothing in this
Order limits or otherwise restricts the Defendants
from proceeding with and completing all matters

A-74

described in N.D.C.C. Chapter 61-33.1, including but
not limited to (a) receiving and acting upon public
comments, (b) conducting public hearings, (c) actions
to be taken by the Department of Mineral Resources,
a department of the Industrial Commission, and the
engineering firm hired the Department of Mineral
Resources pursuant to N.D.C.C. § 61-33.1-03, (d)
actions to be taken by the North Dakota Industrial
Commission, (e) future leasing of minerals, and (f)
the distribution of revenues relating to the leasing of
oil and gas minerals, within the area of land subject
to N.D.C.C. 61-33.1, that are collected from and after
the April 21, 2017 effective date of N.D.C.C. Chapter
61-33.1.
[¶7] The Plaintiffs shall be not be required provide a
security.
[¶8] The terms and conditions of this Order shall
continue throughout the pendency of this action and
until further order of this Court.
BY THE COURT:
s/
6/26/18
Honorable John C. Irby
District Court Judge

A-75

IN THE SUPREME COURT
STATE OF NORTH DAKOTA
JUDGMENT
Supreme Court No. 20190203
Cass County Case No. 2018-CV-00089
Appeal from the district court for Cass County.
Paul Sorum, Marvin Nelson, Michael Coachman,
Charles Tuttle and Lisa Marie Omlid, each on behalf
of themselves and all similarly situated tax payers of
the State of North Dakota,
Plaintiffs, Appellees, and Cross-Appellants,
v.
The State of North Dakota, The Board of University
and School Lands of the State of North Dakota,
The North Dakota Industrial Commission,
The Hon. Douglas Burgum, in his official capacity as
Governor of the State of North Dakota, and the Hon.
Wayne Stenehjem, in his official capacity as Attorney
General of North Dakota,
Defendants, Appellants, and CrossAppellees.
[¶1] This appeal having been heard by the Court at the
March 2020 Term before:
[¶2] Chief Justice Justice Jon J. Jensen, Justice Gerald
W. VandeWalle, Justice Daniel J. Crothers, Justice
Jerod E. Tufte, and Surrogate Judge Norman G.
Anderson, sitting in place of Justice Lisa Fair
McEvers;

A-76

[¶3] and the Court having considered the appeal, it is
ORDERED AND ADJUDGED that the judgment of
the district court is AFFIRMED in part and
REVERSED in part.
[¶4] IT IS FURTHER ORDERED AND ADJUDGED
that Plaintiffs, Appellees, and Cross- Appellants have
and recover from Defendants, Appellants, and CrossAppellees costs and disbursements on this appeal
under N.D.R.App.P. 39, to be taxed and allowed in the
court below.
[¶5] This judgment, together with the opinion of the
Court filed this date, constitutes the mandate of the
Supreme Court on the date it is issued to the district
court under N.D.R.App.P. 41.
Dated: July 30, 2020
By the Court:
s/
Chief Justice
ATTEST:
s/
Clerk

A-77

CHAPTER 61-33
SOVEREIGN LAND MANAGEMENT
61-33-01. Definitions.
As used in this chapter, unless the context otherwise
requires:
1. "Board" means the sovereign lands advisory
board.
2. "Board of university and school lands"
means that entity created by section 15-0101.
3. "Navigable waters" means waters that were
in fact navigable at the time of statehood,
and that are used, were used, or were
susceptible of being used in their ordinary
condition as highways for commerce over
which trade and travel were or may have
been conducted in the customary modes of
trade on water.
4. "Ordinary high water mark" means that line
below which the presence and action of the
water upon the land is continuous enough so
as to prevent the growth of terrestrial
vegetation, destroy its value for agricultural
purposes by preventing the growth of what
may be termed an ordinary agricultural
crop, including hay, or restrict its growth to
predominantly aquatic species.
5. "Sovereign lands" means those areas,
including beds and islands, lying within the
ordinary high water mark of navigable lakes
and streams. Lands established to be
riparian accretion or reliction lands
pursuant to section 47-06-05 are considered
to be above the ordinary high water mark
and are not sovereign lands.

A-78

6.

"State engineer" means the person
appointed by the state water commission
pursuant to section 61-03-01.

61-33-01.1.
Ordinary
high
water
mark
determination - Factors to be considered.
The state engineer shall maintain ordinary high
water mark delineation guidelines consistent with
this section.
1. When determining the ordinary high water
mark for delineating the boundary of
sovereign lands, vegetation and soils
analysis must be considered the primary
physical indicators. When considering
vegetation, the ordinary high water mark is
the line below which the presence and action
of the water is frequent enough to prevent
the growth of terrestrial vegetation or
restrict vegetation growth to predominately
aquatic species. Generally, land, including
hay land, where the high and continuous
presence of water has destroyed the value of
the land for agricultural purposes must be
deemed within the ordinary high water
mark.
2. When feasible, direct hydrological and
hydraulic measurements from stream gauge
data, elevation data, historic records of
water flow, high resolution light detection
and ranging systems, prior elevation and
survey maps, and statistical hydrological
evidence must be considered when
determining the ordinary high water mark.
The state engineer shall establish
appropriate guidelines, technical standards,
and other criteria, including use of light

A-79

3.

detection and ranging systems or other
future technological advancements, as
necessary, for conducting hydrologic and
hydraulic modeling required by this section.
Secondary physical indicators, including
litter, debris, or staining, may be considered
to supplement the analysis of the ordinary
high water mark investigation but may not
supersede primary physical indicators
unless primary physical indicators are
deemed
inadequate
or
inconclusive.
Physical indicators directly affected by
influent
non-navigable
tributaries,
adjoining water bodies, or wetlands may not
be used to delineate the sovereign land
boundary of a navigable body of water.

61-33-02. Administration of sovereign lands.
All sovereign lands of the state must be
administered by the state engineer and the board of
university and school lands subject to the provisions
of this chapter. Lands managed pursuant to this
chapter are not subject to leasing provisions found
elsewhere in this code.
61-33-03. Transfer of possessory interests in real
property.
All possessory interests now owned or that may be
acquired except oil, gas, and related hydrocarbons, in
the sovereign lands of the state owned or controlled by
the state or any of its officers, departments, or the
Bank of North Dakota, together with any future
increments, are transferred to the state of North
Dakota, acting by and through the state engineer. All
such possessory interests in oil, gas, and related
hydrocarbons in the sovereign lands of the state are

A-80

transferred to the state of North Dakota, acting by and
through the board of university and school lands.
These transfers are self-executing. No evidence other
than the provisions of this chapter is required to
establish the fact of transfer of title to the state of
North Dakota, acting by and through the state
engineer and board of university and school lands.
Proper and sufficient delivery of all title documents is
conclusively presumed.
61-33-04. Existing contracts and encumbrances
recognized.
The transfers made by this chapter are subject to
all existing contracts, rights, easements, and
encumbrances made or sanctioned by the state or any
of its officers or departments.
61-33-05. Duties and powers of the state
engineer.
The state engineer shall manage, operate, and
supervise all properties transferred to it by this
chapter; may enter into any agreements regarding
such property; may enforce all rights of the owner in
its own name; may issue and enforce administrative
orders and recover the cost of the enforcement from the
party against which enforcement is sought; and may
make and execute all instruments of release or
conveyance as may be required pursuant to
agreements made with respect to such assets, whether
such agreements were made heretofore, or are made
hereafter. The state engineer may enter agreements
with the game and fish department or other law
enforcement entities to enforce this chapter and rules
adopted under this chapter.
61-33-05.1. Navigability determinations.

A-81

1.

2.

Before making a determination that a body
of water or portion of a body of water is
navigable, the state engineer shall:
a. Develop and deliver to the state water
commission a preliminary finding
regarding the navigability of the body of
water or portion of a body of water and
the legal rationale for the preliminary
finding; and
b. Consult
with
the
state
water
commission in an open meeting and
demonstrate the public need and
purpose for the determination to be
made.
After completing the requirements of
subsection 1, the state engineer may
proceed with making a final determination
of navigability by:
a. Providing reasonable public notice of
the preliminary finding, legal rationale
for the preliminary finding, and
opportunity for the public to provide
comments for no less than sixty days.
The notice must:
(1) Include the address and electronic
mail address to which public
comments may be sent and the
deadline
by
which
public
comments must be received;
(2) Clearly identify the specific body of
water or portion of a body of water
for
which
the
finding
of
navigability is sought;
(3) State the state engineer will hold a
public hearing regarding the
preliminary finding before a final

A-82

3.

determination of navigability is
made, and provide the date, time,
and location of the public hearing;
(4) Be provided to the governing body
of each soil conservation district,
water resource district, and county
adjacent to the body of water or
portion of a body of water for which
the preliminary finding was made;
(5) Be published in the official county
newspaper
for
each
county
adjacent to the body of water or
portion of a body of water for which
the preliminary finding was made;
and
(6) Briefly state the purpose of the
hearing and describe the impact or
effect
a
determination
of
navigability will have on the
property rights of persons who
own property adjacent to the body
of water or portion of a body of
water for which the determination
of navigability may be made; and
b. Holding a public hearing regarding the
preliminary finding.
After completing the requirements of
subsection 2 and making a determination of
navigability, the state engineer shall
prepare
a
report
regarding
the
determination, including summaries of the
information provided to the state water
commission, the public hearings held, and
the public comments received. The state
engineer shall provide the report to the state
water commission, send the report by

A-83

4.

certified mail to any person that appeared at
the public hearing required under
subsection 2 or provided written comments
by the deadline, make the report available
to the public, including on the website for
the office of the secretary of state, and
provide public notice of the report's
availability. The report is final on the date
it is provided to the state water commission.
A determination of navigability may be
appealed directly to a court of competent
jurisdiction in accordance with sections 2832-42 through 28-32-46 and sections 28-3250 and 28-32-51.

61-33-06. Duties and powers of the board of
university and school lands.
The board of university and school lands shall
manage, operate, and supervise all properties
transferred to it by this chapter; may enter into any
agreements regarding such property; may enforce all
subsurface rights of the owner in its own name; and
may make and execute all instruments of release or
conveyance as may be required pursuant to
agreements made with respect to such assets, whether
such agreements were made heretofore, or are made
hereafter.
61-33-07. Deposit of income.
All income derived from the lease and
management of the lands acquired by the state
engineer and board of university and school lands
pursuant to this chapter and not belonging to other
trust funds must be deposited in the strategic
investment and improvements fund.

A-84

61-33-08. Advisory board - Responsibilities.
There is created a sovereign lands advisory
board. The board's responsibility is to advise the
state engineer and the board of university and school
lands on general policies as well as specific projects,
programs, and uses regarding sovereign lands. The
board, being solely advisory, has no authority to
require the state engineer or the board of university
and school lands to implement or otherwise accept
the board's recommendations.
61-33-09. Members of the board - Organization Meetings.
1. The board consists of the manager of the
Garrison Diversion Conservancy District,
the state engineer, the commissioner of
university and school lands, the director of
the parks and recreation department, the
director of the game and fish department,
and the director of the department of
environmental
quality,
or
their
representatives.
2. The state engineer is the board's secretary.
3. The board shall meet at least once a year or
at the call of the state engineer or two or
more members of the board. The board shall
meet at the office of the state engineer or at
any other place decided upon by the board.
4. The board may adopt rules to govern its
activities.
61-33-10. Penalty.
A person who violates this chapter or any rule
implementing this chapter is guilty of a class B
misdemeanor unless a lesser penalty is indicated. A
civil penalty may be imposed by a court in a civil

A-85

proceeding or by the state engineer through an
adjudicative proceeding pursuant to chapter 28-32.
The assessment of a civil penalty does not preclude
the imposition of other sanctions authorized by law,
this chapter, or rules adopted under this chapter.
The state engineer may bring a civil action to recover
damages resulting from violations and may also
recover any costs incurred.

A-86

CHAPTER 61-33.1
STATE OWNERSHIP OF MISSOURI RIVERBED
61-33.1-01. Definitions. (Retroactive application
- See note)
For purposes of this chapter, unless the context
otherwise requires:
1. "Corps survey" means the last known survey
conducted by the army corps of engineers in
connection with the corps' determination of
the amount of land acquired by the corps for
the impoundment of Lake Sakakawea and
Lake Oahe, as supplemented by the
supplemental plats created by the branch of
cadastral survey of the United States
bureau of land management.
2. "Historical Missouri riverbed channel"
means the Missouri riverbed channel as it
existed upon the closure of the Pick-Sloan
Missouri basin project dams, and extends
from the Garrison Dam to the southern
border of sections 33 and 34, township 153
north, range 102 west which is the
approximate location of river mile marker
1,565, and from the South Dakota border to
river mile marker 1,303.
3. "Segment" means the individual segment
maps contained within the corps survey
final project maps for the Pick-Sloan project
dams.
4. "State phase two survey" means the
"Ordinary High Water Mark Survey Task
Order #2 Final Technical Report"
commissioned by the board of university
and school lands.

A-87

61-33.1-02. Mineral ownership of land subject to
inundation by Pick-Sloan Missouri basin
project dams. (Retroactive application - See
note)
The state sovereign land mineral ownership of the
riverbed segments subject to inundation by PickSloan Missouri basin project dams extends only to the
historical Missouri riverbed channel up to the
ordinary high water mark. The state holds no claim or
title to any minerals above the ordinary high water
mark of the historical Missouri riverbed channel
subject to inundation by Pick-Sloan Missouri basin
project dams, except for original grant lands acquired
by the state under federal law and any minerals
acquired by the state through purchase, foreclosure,
or other written conveyance. Mineral ownership of the
riverbed segments subject to inundation by PickSloan Missouri basin project dams which are located
within the exterior boundaries of the Fort Berthold
reservation and Standing Rock Indian reservation is
controlled by other law and is excepted from this
section.
61-33.1-03. Determination of the ordinary high
water mark of the historical Missouri riverbed
channel. (Retroactive application - See note)
1. The corps survey must be considered the
presumptive determination of the ordinary
high water mark of the historical Missouri
riverbed channel, subject only to the review
process under this section and judicial
review as provided in this chapter.
2. Effective April 21, 2017, the department of
mineral
resources
shall
commence
procurement
to
select
a
qualified
engineering and surveying firm to conduct a

A-88

3.

review of the corps survey under this
section. The review must be limited to the
corps survey segments from the northern
boundary of the Fort Berthold Indian
reservation to the southern border of
sections 33 and 34, township 153 north,
range 102 west. Within ninety days of the
first date of publication of the invitation, the
department shall select and approve a firm
for the review. The department may not
select or approve a firm that has a conflict of
interest in the outcome of the review,
including any firm that has participated in
a survey of the Missouri riverbed for the
state or a state agency, or participated as a
party or expert witness in any litigation
regarding an assertion by the state of
mineral ownership of the Missouri riverbed.
The selected and approved firm shall review
the delineation of the ordinary high water
mark of the corps survey segments. The
review must determine whether clear and
convincing evidence establishes that a
portion of the corps survey does not
reasonably reflect the ordinary high water
mark of the historical Missouri riverbed
channel under state law. The following
parameters, historical data, materials, and
applicable state laws must be considered in
the review:
a. Aerial photography of the historical
Missouri riverbed channel existing
before the closure date of the Pick-Sloan
project dams;
b. The historical records of the army corps
of engineers pertaining to the corps

A-89

c.
d.

e.

survey;
Army corps of engineers and United
States geological survey elevation and
Missouri River flow data;
State
case
law
regarding
the
identification of the point at which the
presence of action of the water is so
continuous as to destroy the value of the
land
for
agricultural
purposes,
including hay lands. Land where the
high and continuous presence of water
has destroyed its value for agricultural
purposes, including hay land, generally
must be considered within the ordinary
high water mark. The value for
agricultural purposes is destroyed at
the level where significant, major, and
substantial terrestrial vegetation ends
or ceases to grow. Lands having
agricultural value capable of growing
crops or hay, but not merely
intermittent grazing or location of
cattle, generally must be considered
above the ordinary high water mark;
and
Section 61-33-01 and section 47-06-05,
which provide all accretions are
presumed to be above the ordinary high
water mark and are not sovereign
lands. Accreted lands may be
determined to be within the ordinary
high water mark of the historical
Missouri riverbed channel based on
clear and convincing evidence. Areas of
low-lying and flat lands where the
ordinary high water mark may be

A-90

4.

5.

6.

7.

impracticable to determine due to
inconclusive aerial photography or
inconclusive vegetation analysis must
be presumed to be above the ordinary
high water mark and owned by the
riparian landowner.
The firm shall complete the review within
six months of entering a contract with the
department of mineral resources. The
department may extend the time required to
complete the review if the department
deems an extension necessary.
Upon completion of the review, the firm
shall provide its findings to the department.
The findings must address each segment of
the corps survey the firm reviewed and must
include a recommendation to either
maintain or adjust, modify, or correct the
corps survey as the delineation of the
ordinary high water mark for each segment.
The firm may recommend an adjustment,
modification, or correction to a segment of
the corps survey only if clear and convincing
evidence establishes the corps survey for
that segment does not reasonably reflect the
ordinary high water mark of the historical
Missouri riverbed channel under state law.
The department shall publish notice of the
review findings and a public hearing to be
held on the findings. The public must have
sixty days after publication of the notice to
submit comments to the department. At the
end of the sixty days, the department shall
hold the public hearing on the review.
After the public hearing, the department, in
consultation with the firm, shall consider all

A-91

public
comments,
develop
a
final
recommendation on each of the review
findings,
and
deliver
the
final
recommendations
to
the
industrial
commission, which may adopt or modify the
recommendations.
The
industrial
commission may modify a recommendation
from the department only if it finds clear
and convincing evidence from the resources
in subsection 3 that the recommendation is
substantially inaccurate. The industrial
commission's action on each finding will
determine the delineation of the ordinary
high water mark for the segment of the river
addressed by the finding.
8. Upon adoption of the final review findings
by the industrial commission, the board of
university and school lands may contract
with a qualified engineering and surveying
firm to analyze the final review findings and
determine the acreage on a quarter- quarter
basis or government lot basis above and
below the ordinary high water mark as
delineated by the final review findings of the
industrial
commission.
The
acreage
determination is final upon approval by the
board.
61-33.1-04.
Implementation.
(Retroactive
application - See note)
1. Within six months after the adoption of the
acreage determination by the board of
university and school lands:
a. Any royalty proceeds held by operators
attributable to oil and gas mineral
tracts lying entirely above the ordinary
high water mark of the historical

A-92

2.

Missouri riverbed channel on both the
corps survey and the state phase two
survey must be released to the owners
of the tracts, absent a showing of other
defects affecting mineral title; and
b. Any royalty proceeds held by the board
of university and school lands
attributable to oil and gas mineral
tracts lying entirely above the ordinary
high water mark of the historical
Missouri riverbed channel on both the
corps survey and the state phase two
survey must be released to the relevant
operators to distribute to the owners of
the tracts, absent a showing of other
defects affecting mineral title.
Upon adoption of the acreage determination
by the board of university and school lands:
a. The board of university and school
lands shall begin to implement any
acreage adjustments, lease bonus and
royalty refunds, and payment demands
as may be necessary relating to stateissued oil and gas leases. The board
shall complete the adjustments,
refunds, and payment demands within
two years after approving the acreage
determination.
b. Operators of oil and gas wells affected
by the final acreage determination
immediately shall begin to implement
any acreage and revenue adjustments
relating to state-owned and privately
owned oil and gas interests. The
operators
shall
complete
the
adjustments within two years after the

A-93

board
approves
the
acreage
determination.
Any
applicable
penalties, liability, or interest for late
payment of royalties or revenues from
an affected oil or gas well may not begin
to accrue until the end of the two-year
deadline. The filing of an action under
section 61-33.1-05 tolls the deadline for
any oil and gas well directly affected by
the action challenging the review
finding or final acreage determination.
61-33.1-05. Actions challenging review findings
or final acreage determinations. (Retroactive
application - See note)
1. An interested party seeking to bring an
action challenging the review findings or
recommendations
or
the
industrial
commission actions under this chapter shall
commence an action in district court within
two years of the date of adoption of the final
review
findings
by
the
industrial
commission. The plaintiff bringing an action
under this section may challenge only the
final review finding for the section or
sections of land in which the plaintiff asserts
an interest. The state and all owners of
record of fee or leasehold estates or interests
affected by the finding, recommendation, or
industrial commission action challenged in
the action under this section must be joined
as parties to the action. A plaintiff or
defendant claiming a boundary of the
ordinary high water mark of the historical
Missouri riverbed channel which varies
from the boundary determined under this

A-94

2.

3.

chapter bears the burden of establishing the
variance by clear and convincing evidence
based on evidence of the type required to be
considered by the engineering and
surveying firm under subsection 3 of section
61-33.1-03.
An interested party seeking to bring an
action challenging the final acreage
determination under this chapter shall
commence an action in district court within
two years of the date the acreage
determinations were approved by the board
of university and school lands. The plaintiff
bringing an action under this section may
challenge only the acreage determination
for the section or sections of land in which
the plaintiff asserts an interest. The state
and all owners of record of fee or leasehold
estates or interests affected by the final
acreage determination challenged in the
action under this section must be joined as
parties to the action. A plaintiff or defendant
claiming a determination of the acreage
above or below the historical Missouri
riverbed channel which varies from the final
acreage determination under this chapter
bears the burden of establishing the
variance by clear and convincing evidence
based on evidence of
the type required to be considered by the
engineering and surveying firm contracted
by the board of university and school lands
under subsection 2 of section 61-33.1-04.
Notwithstanding any other provision of law,
an action brought in district court under
this section is the sole remedy for

A-95

challenging
the
final
review,
recommendations, determination of the
ordinary high water mark, and final acreage
determination under this chapter, and
preempts
any
right
to
rehearing,
reconsideration, administrative appeal, or
other form of civil action provided under
law.
61-33.1-06. Public domain lands. (Retroactive
application - See note)
Notwithstanding any provision of this chapter to
the contrary, the ordinary high water mark of the
historical Missouri riverbed channel abutting
nonpatented public domain lands owned by the
United States must be determined by the branch of
cadastral study of the United States bureau of land
management in accordance with federal law.
61-33.1-07.
State
engineer
regulatory
jurisdiction. (Retroactive application - See note)
This chapter does not affect the authority of the
state engineer to regulate the historical Missouri
riverbed channel, minerals other than oil and gas, or
the waters of the state, provided the regulation does
not affect ownership of oil and gas minerals in and
under the riverbed or lands above the ordinary high
water mark of the historical Missouri riverbed
channel subject to inundation by Pick-Sloan
Missouri basin project dams.

A-96

43 U.S.C.A. § 1311
§ 1311. Rights of States
Currentness
(a) Confirmation and establishment of title and
ownership of lands and resources; management,
administration, leasing, development, and use
It is determined and declared to be in the public
interest that (1) title to and ownership of the lands
beneath navigable waters within the boundaries of the
respective States, and the natural resources within
such lands and waters, and (2) the right and power to
manage, administer, lease, develop, and use the said
lands and natural resources all in accordance with
applicable State law be, and they are, subject to the
provisions hereof, recognized, confirmed, established,
and vested in and assigned to the respective States or
the persons who were on June 5, 1950, entitled thereto
under the law of the respective States in which the
land is located, and the respective grantees, lessees, or
successors in interest thereof;
(b) Release and relinquishment of title and claims of
United States; payment to States of moneys paid
under leases
(1) The United States releases and relinquishes
unto said States and persons aforesaid, except as
otherwise reserved herein, all right, title, and
interest of the United States, if any it has, in and to
all said lands, improvements, and natural
resources; (2) the United States releases and
relinquishes all claims of the United States, if any

A-97

it has, for money or damages arising out of any
operations of said States or persons pursuant to
State authority upon or within said lands and
navigable waters; and (3) the Secretary of the
Interior or the Secretary of the Navy or the
Treasurer of the United States shall pay to the
respective States or their grantees issuing leases
covering such lands or natural resources all moneys
paid thereunder to the Secretary of the Interior or
to the Secretary of the Navy or to the Treasurer of
the United States and subject to the control of any
of them or to the control of the United States on
May 22, 1953, except that portion of such moneys
which (1) is required to be returned to a lessee; or
(2) is deductible as provided by stipulation or
agreement between the United States and any of
said States;
(c) Leases in effect on June 5, 1950
The rights, powers, and titles hereby recognized,
confirmed, established, and vested in and assigned to
the respective States and their grantees are subject to
each lease executed by a State, or its grantee, which
was in force and effect on June 5, 1950, in accordance
with its terms and provisions and the laws of the State
issuing, or whose grantee issued, such lease, and such
rights, powers, and titles are further subject to the
rights herein now granted to any person holding any
such lease to continue to maintain the lease, and to
conduct operations thereunder, in accordance with its
provisions, for the full term thereof, and any
extensions, renewals, or replacements authorized
therein, or heretofore authorized by the laws of the
State issuing, or whose grantee issued such lease:
Provided, however, That, if oil or gas was not being

A-98

produced from such lease on and before December 11,
1950, or if the primary term of such lease has expired
since December 11, 1950, then for a term from May 22,
1953 equal to the term remaining unexpired on
December 11, 1950, under the provisions of such lease
or any extensions, renewals, or replacements
authorized therein, or heretofore authorized by the
laws of the State issuing, or whose grantee issued, such
lease: Provided, however, That within ninety days from
May 22, 1953 (i) the lessee shall pay to the State or its
grantee issuing such lease all rents, royalties, and
other sums payable between June 5, 1950, and May 22,
1953, under such lease and the laws of the State
issuing or whose grantee issued such lease, except such
rents, royalties, and other sums as have been paid to
the State, its grantee, the Secretary of the Interior or
the Secretary of the Navy or the Treasurer of the
United States and not refunded to the lessee; and (ii)
the lessee shall file with the Secretary of the Interior
or the Secretary of the Navy and with the State issuing
or whose grantee issued such lease, instruments
consenting to the payment by the Secretary of the
Interior or the Secretary of the Navy or the Treasurer
of the United States to the State or its grantee issuing
the lease, of all rents, royalties, and other payments
under the control of the Secretary of the Interior or the
Secretary of the Navy or the Treasurer of the United
States or the United States which have been paid,
under the lease, except such rentals, royalties, and
other payments as have also been paid by the lessee to
the State or its grantee;
(d) Authority and rights of United States respecting
navigation, flood control and production of power

A-99

Nothing in this subchapter or subchapter I of this
chapter shall affect the use, development,
improvement, or control by or under the constitutional
authority of the United States of said lands and waters
for the purposes of navigation or flood control or the
production of power, or be construed as the release or
relinquishment of any rights of the United States
arising under the constitutional authority of Congress
to regulate or improve navigation, or to provide for
flood control, or the production of power;
(e) Ground and surface waters west of 98th
meridian
Nothing in this subchapter or subchapter I of this
chapter shall be construed as affecting or intended to
affect or in any way interfere with or modify the laws
of the States which lie wholly or in part westward of
the ninety-eighth meridian, relating to the ownership
and control of ground and surface waters; and the
control, appropriation, use, and distribution of such
waters shall continue to be in accordance with the laws
of such States.
CREDIT(S)
(May 22, 1953, c. 65, Title II, § 3, 67 Stat. 30.)
Notes of Decisions (67)
43 U.S.C.A. § 1311, 43 USCA § 1311
Current through P.L. 116-214.

A-100

43 U.S.C.A. § 1313
§ 1313. Exceptions from operation of section 1311 of
this title
Currentness
There is excepted from the operation of section 1311
of this title-(a) all tracts or parcels of land together with all
accretions thereto, resources therein, or improvements
thereon, title to which has been lawfully and expressly
acquired by the United States from any State or from
any person in whom title had vested under the law of
the State or of the United States, and all lands which
the United States lawfully holds under the law of the
State; all lands expressly retained by or ceded to the
United States when the State entered the Union
(otherwise than by a general retention or cession of
lands underlying the marginal sea); all lands acquired
by the United States by eminent domain proceedings,
purchase, cession, gift, or otherwise in a proprietary
capacity; all lands filled in, built up, or otherwise
reclaimed by the United States for its own use; and any
rights the United States has in lands presently and
actually occupied by the United States under claim of
right;
(b) such lands beneath navigable waters held, or any
interest in which is held by the United States for the
benefit of any tribe, band, or group of Indians or for
individual Indians; and
(c) all structures and improvements constructed by
the United States in the exercise of its navigational

A-101

servitude.
CREDIT(S)
(May 22, 1953, c. 65, Title II, § 5, 67 Stat. 32.)
Notes of Decisions (12)
43 U.S.C.A. § 1313, 43 USCA § 1313
Current through P.L. 116-214.

A-102

43 U.S.C.A. § 1314
§ 1314. Rights and powers retained by United
States; purchase of natural resources;
condemnation of lands
Currentness
(a) The United States retains all its navigational
servitude and rights in and powers of regulation and
control of said lands and navigable waters for the
constitutional purposes of commerce, navigation,
national defense, and international affairs, all of which
shall be paramount to, but shall not be deemed to
include, proprietary rights of ownership, or the rights
of management, administration, leasing, use, and
development of the lands and natural resources which
are specifically recognized, confirmed, established, and
vested in and assigned to the respective States and
others by section 1311 of this title.
(b) In time of war or when necessary for national
defense, and the Congress or the President shall so
prescribe, the United States shall have the right of first
refusal to purchase at the prevailing market price, all
or any portion of the said natural resources, or to
acquire and use any portion of said lands by proceeding
in accordance with due process of law and paying just
compensation therefor.
CREDIT(S)
(May 22, 1953, c. 65, Title II, § 6, 67 Stat. 32.)
Notes of Decisions (5)
43 U.S.C.A. § 1314, 43 USCA § 1314
Current through P.L. 116-214.

A-103

33 U.S.C.A. § 701-1
§ 701-1. Declaration of policy of 1944 act
Effective: December 16, 2016
Currentness
In connection with the exercise of jurisdiction over the
rivers of the Nation through the construction of works
of improvement, for navigation or flood control, as
herein authorized, it is hereby declared to be the policy
of the Congress to recognize the interests and rights of
the States in determining the development of the
watersheds within their borders and likewise their
interests and rights in water utilization and control, as
herein authorized to preserve and protect to the fullest
possible extent established and potential uses, for all
purposes, of the waters of the Nation's rivers; to
facilitate the consideration of projects on a basis of
comprehensive and coordinated development; and to
limit the authorization and construction of navigation
works to those in which a substantial benefit to
navigation will be realized therefrom and which can be
operated consistently with appropriate and economic
use of the waters of such rivers by other users.
In conformity with this policy:
(a) Plans, proposals, or reports of the Chief of
Engineers, Department of the Army, for any works of
improvement for navigation or flood control not
heretofore or herein authorized, shall be submitted to
the Congress only upon compliance with the provisions
of this paragraph (a). Investigations which form the
basis of any such plans, proposals, or reports shall be

A-104

conducted in such a manner as to give to the affected
State or States, during the course of the investigations,
information developed by the investigations and also
opportunity for consultation regarding plans and
proposals, and, to the extent deemed practicable by the
Chief of Engineers, opportunity to cooperate in the
investigations. If such investigations in whole or part
are concerned with the use or control of waters arising
west of the ninety-seventh meridian, the Chief of
Engineers shall give to the Secretary of the Interior,
during the course of the investigations, information
developed by the investigations and also opportunity
for consultation regarding plans and proposals, and to
the extent deemed practicable by the Chief of
Engineers, opportunity to cooperate in the
investigations. The relations of the Chief of Engineers
with any State under this paragraph (a) shall be with
the Governor of the State or such official or agency of
the State as the Governor may designate. The term
“affected State or States” shall include those in which
the works or any part thereof are proposed to be
located; those which in whole or part are both within
the drainage basin involved and situated in a State
lying wholly or in part west of the ninety-eighth
meridian; and such of those which are east of the
ninety-eighth meridian as, in the judgment of the Chief
of Engineers, will be substantially affected. Such
plans, proposals, or reports and related investigations
shall be made to the end, among other things, of
facilitating the coordination of plans for the
construction and operation of the proposed works with
other plans involving the waters which would be used
or controlled by such proposed works. Each report
submitting any such plans or proposals to the Congress
shall set out therein, among other things, the
relationship between the plans for construction and

A-105

operation of the proposed works and the plans, if any,
submitted by the affected States and by the Secretary
of the Interior. The Chief of Engineers shall transmit a
copy of his proposed report to each affected State, and,
in case the plans or proposals covered by the report are
concerned with the use or control of waters which rise
in whole or in part west of the ninety-seventh
meridian, to the Secretary of the Interior. Within 30
days from the date of receipt of said proposed report,
the written views and recommendations of each
affected State and of the Secretary of the Interior may
be submitted to the Chief of Engineers. The Secretary
of the Army shall transmit to the Congress, with such
comments and recommendations as he deems
appropriate, the proposed report together with the
submitted views and recommendations of affected
States and of the Secretary of the Interior. The
Secretary of the Army may prepare and make said
transmittal any time following said 30-day period. The
letter of transmittal and its attachments shall be
printed as a House or Senate document and shall be
made publicly available.
(b) The use for navigation, in connection with the
operation and maintenance of such works herein
authorized for construction, of waters arising in States
lying wholly or partly west of the ninety-eighth
meridian shall be only such use as does not conflict
with any beneficial consumptive use, present or future,
in States lying wholly or partly west of the ninetyeighth meridian, of such waters for domestic,
municipal, stock water, irrigation, mining, or
industrial purposes.
(c) The Secretary of the Interior, in making
investigations of and reports on works for irrigation

A-106

and purposes incidental thereto shall, in relation to an
affected State or States (as defined in paragraph (a) of
this section), and to the Secretary of the Army, be
subject
to
the
same
provisions
regarding
investigations, plans, proposals, and reports as
prescribed in paragraph (a) of this section for the Chief
of Engineers and the Secretary of the Army. In the
event a submission of views and recommendations,
made by an affected State or by the Secretary of the
Army pursuant to said provisions, sets forth objections
to the plans or proposals covered by the report of the
Secretary of the Interior, the proposed works shall not
be deemed authorized except upon approval by an Act
of Congress; and section 485h(a) of title 43 and section
590z-1(a) of title 16 are amended accordingly.
CREDIT(S)
(Dec. 22, 1944, c. 665, § 1, 58 Stat. 887; July 26,
1947, c. 343, Title II, § 205(a), 61 Stat. 501;
Pub.L. 104-303, Title II, §223, Oct. 12, 1996, 110
Stat. 3697; Pub.L. 114-322, Title I, § 1136(a),
Dec. 16, 2016, 130 Stat. 1656.)
Notes of Decisions (2)
33 U.S.C.A. § 701-1, 33 USCA § 701-1
Current through P.L. 116-214.

A-107

